<html>
<title> - UNDERMINING MERCURY PROTECTIONS: EPA ENDANGERS HUMAN HEALTH AND THE ENVIRONMENT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
  UNDERMINING MERCURY PROTECTIONS: EPA ENDANGERS HUMAN HEALTH AND THE 
                              ENVIRONMENT

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2019

                               __________

                           Serial No. 116-36
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                        
                           ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
40-548 PDF            WASHINGTON : 2020 
                         
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
              Subcommittee on Oversight and Investigations

                        DIANA DeGETTE, Colorado
                                  Chair
                                  
JAN SCHAKOWSKY, Illinois             BRETT GUTHRIE, Kentucky
JOSEPH P. KENNEDY III,                 Ranking Member
    Massachusetts, Vice Chair        MICHAEL C. BURGESS, Texas
RAUL RUIZ, California                DAVID B. McKINLEY, West Virginia
ANN M. KUSTER, New Hampshire         H. MORGAN GRIFFITH, Virginia
KATHY CASTOR, Florida                SUSAN W. BROOKS, Indiana
JOHN P. SARBANES, Maryland           MARKWAYNE MULLIN, Oklahoma
PAUL TONKO, New York                 JEFF DUNCAN, South Carolina
YVETTE D. CLARKE, New York           GREG WALDEN, Oregon (ex officio)
SCOTT H. PETERS, California
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
    
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     2
    Prepared statement...........................................     3
Hon. Brett Guthrie, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     5
    Prepared statement...........................................     6
Hon. Joseph P. Kennedy III, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     7
    Prepared statement...........................................     9
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    10
    Prepared statement...........................................    12

                               Witnesses

Janet McCabe, Former Acting Assistant Administrator, Office of 
  Air and Radiation, Environmental Protection Agency.............    14
    Prepared statement...........................................    17
    Answers to submitted questions...............................   186
Heather McTeer Toney, National Field Director, Moms Clean Air 
  Force..........................................................    26
    Prepared statement...........................................    28
Michael A. Livermore, Associate Professor of Law, University of 
  Virginia.......................................................    43
    Prepared statement...........................................    45
    Answers to submitted questions...............................   188
Noelle Eckley Selin, Ph.D., Associate Professor and Director, 
  Technology and Policy Program, Massachusetts Institute of 
  Technology.....................................................    55
    Prepared statement...........................................    57
    Answers to submitted questions...............................   193
Philip J. Landrigan, M.D., Director, Global Public Health 
  Program, Schiller Institute for Integrated Science and Society, 
  Boston College.................................................    69
    Prepared statement...........................................    71
Adam R. F. Gustafson, Partner, Boyden Gray & Associates, PLLC....    79
    Prepared statement...........................................    81
    Answers to submitted questions...............................   196

                           Submitted Material

Memorandum, committee minority staff, submitted by Mr. Guthrie...   130
Report by NERA Economic Consulting, ``Estimating Employment 
  Impacts of Regulation: A Review of EPA's Methods for Its Air 
  Rules,'' by Anne E. Smith, et al., February 2013, \1\ submitted 
  by Mr. Guthrie
Article of May 31, 2016, ``EPA's Particulate Matter Co-Benefits: 
  A Case of Ever-Declining Credibility,'' by Scott J. Bloomberg, 
  Daily Environment Report, Bloomberg BNA, submitted by Mr. 
  Guthrie........................................................   143
Report by Anne E. Smith, NERA Economic Consulting, ``Technical 
  Comments on the Regulatory Impact Analysis Supporting EPA's 
  Proposed Rule for Utility MACT and Revised NSPS (76 FR 
  24976),'' August 3, 2011, \2\ submitted by Mr. Guthrie

----------

\1\ The report has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF02/20190521/109556/
HHRG-116-IF02-20190521-SD004.pdf.
\2\ The report has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF02/20190521/109556/
HHRG-116-IF02-20190521-SD006.pdf.
Article, ``Inconsistencies in Risk Analyses for Ambient Air 
  Pollutant Regulations,'' by Anne E. Smith, Risk Analysis, Vol. 
  36, No. 9, 2016, submitted by Mr. Guthrie......................   146
Report by NERA Economic Consulting, ``An Economic Impact Analysis 
  of EPA's Mercury and Air Toxics Standards Rule,'' by Anne E. 
  Smith, et al., March 1, 2012, submitted by Mr. Guthrie.........   154
Proposed Rule, ``National Emission Standards for Hazardous Air 
  Pollutants: Coal- and Oil-Fired Electric Utility Steam 
  Generating Units--Reconsideration of Supplemental Finding and 
  Residual Risk and Technology Review,'' Environmental Protection 
  Agency, 40 CFR Part 63, in the Federal Register, Vol. 84, No. 
  26, Thursday, February 7, 2019, \3\ submitted by Mr. Guthrie
Comments of April 17, 2019, from the Environmental Law & Policy 
  Center, et al., to Environmental Protection Agency, Docket No. 
  EPA-HQ-OAR-2018-0794, submitted by Ms. DeGette.................   163
Fact Sheet, ``How Mercury Poisoning Works,'' Moms Clean Air 
  Force, September 2018, submitted by Ms. DeGette................   173
Letter of May 10, 2019, from Ms. Castor, et al., to Andrew 
  Wheeler, Administrator, Environmental Protection Agency, 
  submitted by Ms. DeGette.......................................   175
Letter of March 26, 2019, from Edison Electric Institute, et al., 
  to William L. Wehrum, Assistant Administrator, Office of Air 
  and Radiation, Environmental Protection Agency, submitted by 
  Mr. Soto.......................................................   179
Letter of September 5, 2017, from Mr. Soto to Scott Pruitt, 
  Administrator, Environmental Protection Agency, submitted by 
  Mr. Soto.......................................................   183
Letter of January 30, 2018, from Barry N. Breen, Principal Deputy 
  Assistant Administrator, Office of Land and Emergency 
  Management, Environmental Protection Agency, to Mr. Soto, 
  submitted by Mr. Soto..........................................   184

----------

\3\ The proposed rule has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF02/20190521/109556/
HHRG-116-IF02-20190521-SD009.pdf.


  UNDERMINING MERCURY PROTECTIONS: EPA ENDANGERS HUMAN HEALTH AND THE 
                              ENVIRONMENT

                              ----------                              


                         TUESDAY, MAY 21, 2019

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2322, Rayburn House Office Building, Hon. Diana DeGette 
(chair of the subcommittee) presiding.
    Members present: Representatives DeGette, Kennedy, Ruiz, 
Kuster, Sarbanes, Tonko, Clarke, Peters, Guthrie (subcommittee 
ranking member), Burgess, McKinley, Griffith, Brooks, Mullin, 
Duncan, and Walden (ex officio).
    Also present: Representative Soto.
    Staff present: Kevin Barstow, Chief Oversight Counsel; 
Jeffrey C. Carroll, Staff Director; Waverly Gordon, Deputy 
Chief Counsel; Judy Harvey, Counsel; Chris Knauer, Oversight 
Staff Director; Brendan Larkin, Policy Coordinator; Jourdan 
Lewis, Policy Analyst; Jon Monger, Counsel; Alivia Roberts, 
Press Assistant; Tim Robinson, Chief Counsel; Nikki Roy, Policy 
Coordinator; Jen Barblan, Minority Chief Counsel, Oversight and 
Investigations; Mike Bloomquist, Minority Staff Director; S. K. 
Bowen, Minority Press Assistant; Jordan Davis, Minority Senior 
Advisor; Brittany Havens, Minority Professional Staff Member, 
Oversight and Investigations; Peter Kielty, Minority General 
Counsel; Ryan Long, Minority Deputy Staff Director; Brannon 
Rains, Minority Staff Assistant; and Natalie Sohn, Minority 
Counsel, Oversight and Investigations.
    Ms. DeGette. The Subcommittee on Oversight and 
Investigations will now come to order.
    Today, the Subcommittee on Oversight and Investigations is 
holding a hearing entitled ``Undermining Mercury Protections: 
EPA Endangers Human Health and the Environment.''
    The purpose of today's hearing is to examine the 
Environmental Protection Agency's recent proposal that says 
limiting mercury and other toxics from coal- and oil-fired 
power plants is not, quote, ``appropriate and necessary'' under 
the Clean Air Act.
    The Chair will now recognize herself for purposes of an 
opening statement.

 OPENING STATEMENT OF HON. DIANA DeGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Today, we take a look at the Trump administration's ill-
conceived and, to me, frankly, mind-boggling effort to 
undermine the U.S. Environmental Protection Agency's rule that 
limits mercury emissions from our Nation's coal power plants.
    Mercury is one of the most toxic substances on the planet, 
and it's one that causes real harm to the brain, heart, and 
other essential body systems. Despite the dangers that toxic 
metals can cause, for years there were no Federal regulations 
limiting how much mercury that our coal-fired power plants 
could emit into the atmosphere each year.
    Let me be clear about something. When the EPA fails to 
enact clean air protections, it's our communities, it's our 
families and our environment that all pay the price. And when 
an administration like today's administration tries to unravel 
the protections that we have gotten, it puts all of us at risk.
    In 2012, to address this issue and better protect the 
public from the threat posed by mercury emissions, the Obama 
administration determined that it was, quote, ``appropriate and 
necessary'' under the Clean Air Act to limit how much mercury 
coal power plants could emit each year. The Obama 
administration finalized these new standards in a new rule 
enacted that year known as the Mercury and Air Toxic Standards, 
or MATS. In justifying its decision to enact these new limits, 
the Obama administration estimated, while it would cost 
industry more than $9 billion to comply with the new rule, the 
new standards would generate $4 million to $6 million direct 
health benefits and as much as $90 billion in additional health 
benefits each year by reducing people's exposure to the toxic 
metal.
    Now, the industry chose to challenge the standards in 
court, but they were left in place during the court challenge. 
The industry eventually moved forward and invested billions of 
dollars in new technology and pollution controls to comply with 
these standards. And the investments the companies made led to 
a significant drop in the amount of mercury and other harmful 
pollutants being emitted from the coal power plants across the 
country today. And that is why the Obama administration's so-
called mercury rule has been hailed by advocates as such a 
success. But now, as I said earlier, the rule is under attack 
as the Trump administration is trying to not only undo this new 
mercury rule but also to undermine the theory that it is 
``appropriate and necessary'' for the Agency to enact such 
rules in the first place.
    If the EPA was here today, I am sure that they would tell 
this panel that we have nothing to worry about, that mercury 
standards will remain in effect regardless of their actions, 
and the only reason they are taking a look at this rule now is 
because they are required to do so by the Supreme Court. But, 
of course, the EPA didn't come today, and so I'll just say what 
my perspective is. I don't think that would be true.
    The Supreme Court never told the Trump administration to 
revisit this rule. And the Supreme Court never told the EPA to 
enact a new policy that would ignore billions of dollars in 
health benefits going forward. The Trump administration is 
acting purely on its own initiative. Why? I don't know. What's 
clear is the Trump administration is doing more than simply 
revising the mercury rule. It's trying to set the EPA on an 
entirely new course going forward, one that requires the Agency 
to ignore the real health benefits that our Nation's 
environmental policies often provide to the public.
    I want to thank our witnesses for coming today. We have 
experts who will explain how the administration's new mercury 
proposal contradicts the, quote, ``relevant guidance and 
decades of practice by administrations of both political 
parties.'' They'll explain how it ignores the very real benefit 
that comes from regulating the hazardous pollutants coming from 
our Nation's power plants and how the Trump administration is 
conveniently ignoring some key realities and important new 
information when arguing that the cost of these proposals 
greatly outweighs the benefits.
    For example, according to recent studies, the annual direct 
benefit of regulating mercury could be in the billions, not the 
millions as originally estimated. And the total implementation 
cost for countries to come into compliance was actually much 
lower than was predicted.
    But what's the most puzzling is the timing, because in 
arguing the cost versus benefit of the mercury rule, the EPA 
seems to have forgotten the rule has been in place for years 
already. The industry has already complied. And if you undo the 
rule now, it would put the public's health at risk and also the 
companies' ability to recover the money they invested to 
comply. That's why some of the people who want to keep this 
rule in place is the power industry itself. So, if undoing the 
rule would be bad for public health, bad for the environment, 
and bad for industry itself, who does it help? And why is the 
EPA pushing this? That's what I'm trying to understand.
    Now, I just want to close briefly by saying that I'm 
continually frustrated and surprised by the administration's 
refusal to send witnesses to Congress. And the EPA's refusal to 
show up today is just another example of the efforts to block 
Congress from performing its oversight functions. And so we are 
going to have to move forward, but it would be really helpful 
if we had the agencies here to help us.
    [The prepared statement of Ms. DeGette follows:]

                Prepared Statement of Hon. Diana DeGette

    Today, we take a look at the Trump administration's ill-
conceived and--quite frankly--mindboggling efforts to undermine 
the U.S. Environmental Protection Agency's (EPA) rule that 
limits mercury emissions from our Nation's coal power plants.
    Mercury is one of the most toxic substances on the planet--
and it's one that can cause real harm to the brain, heart and 
other essential bodily systems.
    Despite the dangers that this toxic metal can cause, for 
years there had been no Federal regulations limiting how much 
mercury that our coal-fired power plants could emit into the 
atmosphere each year.
    Let me be clear about something: When the EPA fails to 
enact clean air protections, it is our communities, and our 
families, and our environment that pay the price. And when an 
administration--like the one we have today--tries to unravel 
the protections that we already have, it puts all of us at 
risk.
    In 2012, to better protect the public from the threat posed 
by mercury emissions, the Obama administration determined that 
it was ``appropriate and necessary'' under the Clean Air Act 
for the EPA to limit how much mercury coal power plants could 
emit each year.
    The Obama administration finalized these new standards in a 
new rule it enacted that year known as the Mercury and Air 
Toxics Standards, or ``MATS.''
    In justifying its decision to enact these new limits, the 
Obama administration estimated that while it would cost the 
industry more than $9 billion to comply with the new rule, the 
new standards would generate $4 to $6 million in direct health 
benefits, and as much as $90 billion in additional health 
benefits every year by reducing people's exposure to the toxic 
metal.
    While the industry chose to challenge the new standards in 
court, they were upheld as the EPA, at the time, argued--again 
and again--that it was ``appropriate and necessary'' for the 
Agency to limit mercury pollution from power plants.
    With the courts siding with the administration, the 
industry eventually moved forward and invested billions of 
dollars in new technology and pollution controls to comply with 
the new standards.
    The investments these companies made have led to a 
significant drop in the amount of mercury and other harmful 
pollutants being admitted from coal-powered plants across the 
country today.
    And it's why the Obama administration's so-called mercury 
rule has been hailed as such a success.
    But now that rule is under attack, as the Trump 
administration--which has shown a determination to roll back 
many our Nation's environmental protections--is trying to not 
only undo the mercury rule, but also undermine the theory that 
it is ``appropriate and necessary'' for the Agency to enact 
such rules in the first place.
    If the EPA were here today, I'm sure they would tell this 
panel that we have nothing to worry about. That the mercury 
standards will remain in effect regardless of their actions, 
and the only reason they are taking a look at this rule now is 
because they are required to do so by the Supreme Court.
    But that wouldn't be entirely true. The Supreme Court never 
told the Trump administration to revisit this rule. And, the 
Supreme Court never told the EPA to enact a new policy that 
would ignore billions of dollars in public health benefits 
going forward. The Trump administration is acting purely on its 
own accord, we know that. But what we don't know is: why?
    What is clear is: the Trump administration is doing more 
than simply revisiting this rule. It's attempting to set the 
EPA on an entirely new course going forward--one that requires 
the Agency to ignore the real health benefits that our Nation's 
environmental policies often provide the public.
    We have experts here today who will explain how the Trump 
administration's new mercury proposal contradicts ``the 
relevant guidance and decades of practice by administration of 
both political parties.''
    They will explain how it ignores the very real benefit that 
comes from regulating the hazardous pollutants coming from our 
Nation's power plants. And how the Trump administration is 
conveniently ignoring some key realities and important new 
information when arguing that the cost of these proposals 
greatly outweigh the benefits.
    For example, according to recent studies, the annual direct 
benefit of regulating mercury could be in be in the billions--
not millions, as originally estimated. And that the total 
implementation cost for these companies to come into compliance 
was actually much lower than originally predicted.
    But what makes this proposal most puzzling is the timing.
    You see, in arguing the cost vs. benefit of the mercury 
rule, the EPA seems to have forgotten that this is a rule 
that's been in place for years now.
    The industry has already spent the billions of dollars it 
took to come into compliance with this rule.
    And by undoing this rule now, the administration would 
actually not only be putting the public's health at risk but it 
would also be putting the companies' ability to recover the 
money they invested to comply with these new standards at risk, 
as well.
    That's why, among those who support keeping this important 
rule in place is the coal power industry itself.
    So, if undoing this rule would be bad for public health, 
bad for the environment, and bad for the industry itself, who 
does it help? And why is the EPA pushing so hard to get this 
done?
    That's what we are seeking to understand.
    Unfortunately, the EPA is, in effect, pleading the fifth in 
this case by refusing to send a witness to testify here today.
    I wish I could say I was shocked, but this is just the 
latest in a series of actions that this agency has taken to 
withhold information from this committee, including information 
that Administrator Wheeler had personally committed to 
providing when he was here to testify in April.
    If the EPA wants to continue to ignore this committee as we 
perform our oversight responsibilities, that's its choice. It's 
not a wise choice, but it is a choice they have seemed to make. 
It will not deter or slow our efforts to get to the truth. And 
it won't stop us from doing the work that we have set out to 
do. It only strengthens our resolve. And we will continue to 
take whatever actions we believe are necessary to safeguard the 
health of our environment and the health of the American 
people.
    Thank you, and I yield.

    Ms. DeGette. And, with that, I'm pleased to yield 5 minutes 
to the ranking member, Mr. Guthrie.

 OPENING STATEMENT OF HON. BRETT GUTHRIE, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Guthrie. Thank you, Chair DeGette. And thank you for 
holding this important hearing.
    The Mercury Air Toxic Standards, MATS, was created to 
regulate mercury levels, and I think it's important to today's 
conversation to discuss where mercury comes from and how we in 
the United States are primarily exposed to it.
    Mercury can be released through human activity, such as 
burning materials which contain mercury. It is also released 
into the atmosphere naturally through events, such as volcanic 
eruptions, forest fires, and normal breakdown of minerals and 
rock and soil. Mercury levels in certain areas can vary 
depending not only on how much mercury is released locally, but 
what can also come from regional, national, even international 
sources due to wind and weather patterns.
    Once released into the atmosphere, mercury will eventually 
deposit into bodies of water or onto land, where it will also 
ultimately be transported into water. In the water, 
microorganisms can change the mercury into methyl mercury, and 
the methyl mercury will accumulate up the food chain into fish 
and shellfish.
    While exposure to mercury takes several forms, nearly all 
human exposure to methyl mercury in the United States occurs 
through fish and shellfish consumption. The regulation we are 
discussing today, MATS, was intended to help reduce the amount 
of mercury created from human activity, specifically mercury 
emitted from coal- and oil-fired electric utility steam plants 
generating units, or EGUs.
    The creation of MATS dates back to 1990 Clean Air Act 
amendments where the Environmental Protection Agency was 
required to conduct studies on coal- and oil-fired EGUs to form 
the EPA's decision where it was ``appropriate and necessary'' 
to regulate EGUs under section 112 of the Clean Air Act. After 
conducting multiple studies in 2000, the Clinton administration 
found that it was ``appropriate and necessary'' to regulate 
coal- and oil-fired EGUs under the Clean Air Act section 112 
and added EGUs to the Act's 112(c) list of source categories 
that must be regulated.
    MATS has had a lengthy and complex history across multiple 
administrations involving studies, proposed rules, final rules, 
cases before the DC circuit, and a case before the Supreme 
Court in 2015 where the Supreme Court told EPA they had to 
consider costs when determining whether this regulation was 
"appropriate and necessary," which EPA had not previously done.
    Most recently, in December, the EPA issued a proposed 
rulemaking to the National Emissions Standards for Hazardous 
Air Pollution, or NESHAP, for EGUs. In the rule, EPA makes four 
proposals: to determine that it is not ``appropriate and 
necessary'' to regulate hazardous air pollutant emissions from 
coal- and oil-fired EGUs planned under section 112 of the Clean 
Air Act; to keep coal- and oil-fired EGUs as a source category 
on the Clean Air Act section 112(c) list of sources that must 
be regulated under 112(d) of the Act, thereby keeping the 
emission standards and other requirements of the MATS rule in 
place for coal- and oil-fired power plants; three, to solicit 
on whether the Agency has the authority and/or obligation to 
delist EGUs from section 112(c) of the Act and rescind the 
NESHAP for coal- and oil-fired EGUs; and, four, to propose the 
results of the residual risk and technology review of NESHAP 
for coal- and oil-fired EGUs.
    This proposed rule does not remove the standard. It only 
proposes to remove the ``appropriate and necessary'' finding 
that almost entirely justified the cost of MATS regulation by 
the cobenefits of regulating particulate matter on which, by 
Congress' design, is regulated under a different section of the 
Act. Today's conversation examines a lot of very complex 
questions and I believe have potential significance beyond 
MATS. For example, was the ``appropriate and necessary'' 
finding that justified MATS sound? Was the regulation made 
under the right section of the Act? And how should a regulatory 
body weigh coal benefits in crafting future regulations, et 
cetera? All of these questions are important, and I hope we can 
have a thorough and honest discussion to inform future 
rulemaking.
    I thank our witnesses for being here today. While it is 
unfortunate the EPA cannot be here today to testify as well, I 
hope the Chair schedules a second hearing soon so the Agency's 
perspective can be heard on these important issues.
    Thank you, and I yield back.
    [The prepared statement of Mr. Guthrie follows:]

                Prepared Statement of Hon. Brett Guthrie

    Thank you, Chair DeGette, for holding this important 
hearing.
    The Mercury and Air Toxics Standards (MATS) was created to 
regulate mercury levels, and I think it's important to today's 
conversation to discuss where mercury comes from and how we, in 
the United States, are primarily exposed to it.
    Mercury can be released through human activity, such as 
burning materials which contain mercury. It is also released 
into the atmosphere naturally, through events such as volcanic 
eruptions, forest fires, or the normal breakdown of minerals in 
rocks and soil. Mercury levels in certain areas can vary 
depending not only on how much mercury is released locally, but 
can also come from regional, national, and even international 
sources due to wind and weather patterns.
    Once released into the atmosphere, mercury will eventually 
deposit into bodies of water or onto land--where it also will 
ultimately be transported into water. In the water, 
microorganisms can change the mercury into methylmercury, and 
the methylmercury will accumulate up the food chain into fish 
and shellfish. While exposure to mercury takes several forms, 
nearly all human exposure to methylmercury in the United States 
occurs through fish and shellfish consumption.
    The regulation we are discussing here today--MATS--was 
intended to help reduce the amount of mercury created from 
human activity, specifically mercury emitted from coal- and 
oil-fired electric utility steam generating units, or ``EGUs.''
    The creation of MATS dates back to the 1990 Clean Air Act 
amendments where the Environmental Protection Agency (EPA) was 
required to conduct studies on coal- and oil-fired EGUs to 
inform the EPA's decision whether it was ``appropriate and 
necessary'' to regulate EGUs under section 112 of the Clean Air 
Act. After conducting multiple studies, in 2000 the Clinton 
administration found that it was ``appropriate and necessary'' 
to regulate coal- and oil-fired EGUs under the Clean Air Act 
section 112 and added EGUs to the Act's 112(c) list of source 
categories that must be regulated.
    MATS has had a lengthy and complex history, across multiple 
administrations involving studies, proposed rules, final rules, 
cases before the DC circuit, and a case before the Supreme 
Court in 2015 where the Supreme Court told EPA they had to 
consider cost when determining whether this regulation was 
``appropriate and necessary,'' which EPA had not previously 
done.
    Most recently, in December, the EPA issued a proposed rule 
relating to the National Emission Standards for Hazardous Air 
Pollutants, or NESHAP, for EGUs. In the rule, EPA makes four 
proposals:
    (1) to determine that it is not ``appropriate and 
necessary'' to regulate Hazardous Air Pollutant emissions from 
coal- and oil-fired EGUs plans under section 112 of the CAA;
    (2) to keep coal- and oil-fired EGUs as a source category 
on the Clean Air Act Section 112(c) list of sources that must 
be regulated under section 112(d) of the Act, thereby keeping 
the emission standards and other requirements of the MATS rule 
in place for coal- and oil-fired power plants;
    (3) to solicit comment on whether the Agency has the 
authority and/or obligation to delist EGUs from section 112(c) 
of the Act and rescind the NESHAP for coal- and oil-fired EGUs; 
and
    (4) to propose the results of the residual risk and 
technology review of the NESHAP for coal- and oil-fired EGUs.
    Contrary to what my colleagues on the other side of the 
aisle might think, this proposed rule does not remove the 
standard, it only proposes to remove the ``appropriate and 
necessary'' finding that almost entirely justified the cost of 
the MATS regulation by the cobenefits of regulating particulate 
matter, which by Congress' design, is regulated under a 
different section of the Act.
    Today's conversation examines a lot of very complex policy 
questions that I believe have potential significances beyond 
MATS. For example--was the ``appropriate and necessary'' 
finding that justified MATS sound, was this regulation made 
under the right section of the Act, how should a regulatory 
body weigh cobenefits in crafting future regulations, etc. All 
of these questions are important, and I hope that we can have a 
thorough and honest discussion to inform future rule making.
    I thank our witnesses for being here today. While it is 
unfortunate that EPA could not be here today to testify as 
well, I hope the Chair schedules a second hearing soon to hear 
the Agency's perspective on these important issues.

    Ms. DeGette. I thank the ranking member.
    I'm now pleased to recognize the vice chair of the 
Oversight Subcommittee, Mr. Kennedy, for 5 minutes for purposes 
of an opening statement.

      OPENING STATEMENT OF HON. JOSEPH P. KENNEDY III, A 
      REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH OF 
                         MASSACHUSETTS

    Mr. Kennedy. Thank you, Madam Chair.
    Over the past 2 1A\1/2\ years, the Trump administration has 
upheld its promise time and again to roll back critical 
environmental protections. Nearly every day, families and 
communities are at greater risk of losing access to clean air 
and clean water at the expense of political convenience.
    Since 2012, the EPA has written a success story for public 
health and the environment through its implementation of 
mercury and toxic air standards, MATS.
    One analysis by the EPA calculated the reduction level from 
86 percent of mercury emissions from 2010 to 2017. Yet despite 
that success, EPA is now proposing to reverse its own findings 
and perhaps the entire MATS regulatory structure.
    Mercury can be highly toxic to infants, children, and 
adults, including severe consequences to the heart, kidney, and 
immune system functions. Prenatal exposure can cause severe 
neurological damage that lasts a lifetime.
    Over the years, the EPA has taken steps to limit emissions 
of mercury from industrial sources like waste incinerators and 
cement and brick production. In 2012, after extensive 
consultation with the power sector and other stakeholders, EPA 
finalized standards under the Clean Air Act to reduce emissions 
of mercury and other toxic air pollutants from coal-fired power 
plants.
    The final rule was quickly challenged in Federal court by 
the coal industry, which argued that the EPA made a flawed 
determination that it was, quote, ``appropriate and necessary'' 
to limit mercury emissions from power plants. The case made its 
way all the way to the Supreme Court, which held that the EPA 
should have considered costs when making its determination.
    In response to the Supreme Court's ruling in 2016, the EPA 
issued a supplemental finding which determined that the 
consideration of costs confirmed its prior determination that 
the regulation of mercury emissions was still, quote, 
``appropriate and necessary.''
    Throughout these legal challenges, the electric generating 
industry pursued regulatory compliance, spending billions of 
dollars on technologies to limit mercury and other toxic 
emissions, contributing to a nearly 90 percent decrease in 
mercury emissions in the past decade. According to a July 2018 
letter from the electric industry to EPA, all covered power 
plants had implemented the regulation and were operating 
pollution controls. Unfortunately, this past December, despite 
all the success in reductions of mercury emissions, Trump EPA 
issued its stunning reversal by proposing it is no longer, 
quote, ``appropriate and necessary,'' unquote, to limit mercury 
emissions from power plants under the Clean Air Act. The EPA 
reached this conclusion by redoing the Agency's cost-benefit 
analysis. In this new calculation, the Agency disregarded the 
health and other benefits of reducing pollutants not directly 
targeted to MATS, also known as cobenefits.
    With those benefits out of the picture, EPA determined the 
cost of the rule greatly outweighed its benefits. The Trump EPA 
and its supporters claim that this new approach is reasonable 
and perhaps even legally required. But the former head of the 
EPA's Air and Radiation Office, who helped finalize this rule 
during the Obama administration, is here today and will say 
just the opposite. By doing what they are doing, the Trump EPA 
is, quote, ``choosing to paint itself into this corner,'' end 
quote.
    The Trump EPA argues that its policy approach is rational 
because the pollutant reductions it ignores for purposes of the 
MATS rule are regulated under a different provision under the 
Clean Air Act. But, as you will hear today from one expert on 
cost-benefit analysis, the Trump EPA approach is, quote, 
``irrational,'' end quote, and further will result in a, quote, 
``biased and misleading estimate of costs and benefits.''
    Beyond its wrong-headed and unjustified approach to the 
cost-benefit analysis, the Trump EPA's proposed determination 
relies on an out-of-date record from 2011. We now know that the 
cost of the MATS rule are lower and the direct benefits of 
mercury and toxic air reductions are much higher than indicated 
in the 2011 record. The Trump EPA conveniently disregards this 
information.
    Administrator Wheeler is now working to justify this 
decision by claiming that the EPA is required to act by the 
Supreme Court. However, in truth, the EPA, in a prior 
administration, already responded to the Supreme Court's 
concerns.
    The new proposal is opposed by parents, by doctors, by 
nurses, by Tribes, by faith leaders, and even by the regulated 
industry itself. Unfortunately, the EPA declined an invitation 
to attend this hearing to offer a much-needed explanation of 
its decision.
    For an agency under this administration that has 
demonstrated time and again that it is not serious about its 
mission, this dangerous and misleading proposal to undermine 
mercury and toxic air protections is a new low and 
unnecessarily creates risks to both public health and the 
environment.
    Thank you, Madam Chair, for holding this important hearing, 
and I yield back.
    [The prepared statement of Mr. Kennedy follows:]

            Prepared Statement of Hon. Joseph P. Kennedy III

    Thank you, Madame Chair.
    Over the last 2 1A\1/2\ years, the Trump administration has 
upheld its promise time and again to roll back critical 
environmental protections. Nearly every day, families and 
communities are at greater risk of losing access to clean air 
and clean water at the expense of political convenience.
    Since 2012, the EPA has written a success story for public 
health and the environment through its implementation of 
mercury and toxic air standards (MATS). One analysis by the EPA 
estimated a reduction level of 86 percent of mercury emissions 
from 2010 to 2017.Despite the success, the EPA is now proposing 
to reverse its own findings and perhaps the entire MATS 
regulatory structure.
    Mercury can be highly toxic to infants, children, and 
adults, including severe consequences to heart, kidney, and 
immune system functions. Prenatal exposure can cause severe 
neurological damage that lasts a lifetime.
    Over the years, the EPA has taken steps to limit emissions 
of mercury from industrial sources like waste incinerators and 
cement and brick production.
    In 2012, after extensive consultation with the power sector 
and other stakeholders, EPA finalized standards under the Clean 
Air Act to reduce emissions of mercury and other toxic air 
pollutants from coal-fired power plants.
    The final rule was quickly challenged in Federal court by 
the coal industry, which argued that EPA made a flawed 
determination that it was ``appropriate and necessary'' to 
limit mercury emissions from power plants. The case made its 
way to the Supreme Court, which held that the EPA should have 
considered cost when making its determination.
    In response to the Supreme Court's ruling, in 2016 the EPA 
issued a supplemental finding which determined that the 
consideration of cost confirmed its prior determination that 
the regulation of mercury emissions was still ``appropriate and 
necessary.''
    Throughout the legal challenges, the electric generating 
industry pursued regulatory compliance, spending billions of 
dollars on technologies to limit mercury and other toxic 
emissions, contributing to a nearly 90 percent decrease in 
mercury emissions in the past decade. According to a July 2018 
letter from the electric industry to the EPA, all covered 
plants had implemented the regulation and were operating 
pollution controls.
    Unfortunately, this past December, despite all the 
successes and reductions of mercury emissions, the Trump EPA 
issued a stunning reversal by proposing it is no longer 
``appropriate and necessary'' to limit mercury emissions from 
power plants under the Clean Air Act.
    EPA reached this conclusion by redoing the Agency's cost-
benefit analysis. In its new calculation, the Agency 
disregarded the health and other benefits from reducing 
pollutants not directly targeted by MATS, also known as 
``cobenefits.'' With those benefits out of the picture, the EPA 
determined costs of the rule greatly outweighed its benefits.
    The Trump EPA and its supporters claim this new approach is 
reasonable, and perhaps even legally required. But the former 
head of EPA's air and radiation office, who helped finalize 
this rule during the Obama administration, is here today and 
will say just the opposite: By doing what they are doing, the 
Trump EPA is ``choosing to paint itself into this corner.''
    The Trump EPA argues that its policy approach is rational 
because the pollutant reductions it ignores for purposes of the 
MATS rule are regulated under a different provision of the 
Clean Air Act. But as you will hear today from one expert on 
cost-benefit analysis, the Trump EPA approach is [quote] 
``irrational,'' and further, will result in a ``biased and 
misleading estimate of costs and benefits.''
    Beyond its wrong-headed and unjustified approach to the 
cost-benefit analysis, the Trump EPA's proposed determination 
relies on an out-of-date record from 2011. We now know that the 
costs of the MATS rule are lower, and the direct benefits from 
mercury and air toxic reductions are much higher than indicated 
in the 2011 record.
    The Trump EPA conveniently disregards this information.
    Administrator Wheeler is now working to justify this 
decision by claiming the EPA is required to act by the Supreme 
Court. However, in truth, the EPA in the prior administration 
already responded to the Supreme Court's concerns.
    The new proposal is opposed by parents, doctors, nurses, 
tribes, faith leaders, and even the regulated industry itself.
    Unfortunately, the EPA declined an invitation to attend 
this hearing to offer much need explanation on its decision.
    For an agency under this administration that has 
demonstrated time and time again that it's not serious about 
its mission, this dangerous and misleading proposal to 
undermine mercury and air toxics protections is a new low and 
unnecessarily creates new risks to both public health and the 
environment.
    Thank you, I yield.

    Ms. DeGette. I thank the gentleman.
    The Chair now recognizes the ranking member of the full 
committee, Mr. Walden, for 5 minutes for the purposes of an 
opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning, Madam Chair, and thanks for 
holding this important hearing.
    Mercury poisoning poses a serious risk to all children and 
to all adults, especially pregnant women and infants. The 
mercury levels in certain areas depend on how much mercury is 
not only released locally but also how much is released across 
the globe. The amount of mercury that travels across the globe 
is not insignificant. Some research suggests that about one-
fifth of the mercury that enters the Willamette River in Oregon 
comes from abroad, and oftentimes from China.
    So let's be clear, though. In the recent proposal, the EPA 
is not changing the emission standards and other requirements 
of the MATS rule for coal- and oil-fired power plants. Indeed, 
the EPA explicitly says that their proposal is to keep power 
plants on the Clean Air Act section 112(c) source list and not 
to change the existing emission standards promulgated in 2012. 
The decision to keep the existing emission standards in place 
for power plants makes sense, especially given that the 
industry has already complied with the MATS rule. The initial 
compliance date was over 4 years ago.
    Power plants reduced mercury emissions by about 86 percent 
and reduced emissions of total hazardous air pollutants by 96 
percent since 2010. These reductions have come at a large cost 
to the industry and to consumers.
    In their comments to the proposed rule, the U.S. Chamber of 
Commerce said the power sector spent about $18 billion on 
compliance controls thus far.
    So not only is it logical for the EPA to keep the existing 
emission standards in place for power plants, but also, under a 
2008 DC circuit court case, the EPA cannot change the existing 
emission standards unless they go through the extremely 
rigorous delisting process under section 112(c)(9) of Clean Air 
Act.
    Given this precedent and how difficult it is to delist a 
source category from the section 112(c)(1) list of the Clean 
Air Act, I have questions for the witnesses today about the 
likelihood of this risk, especially since industry is already 
in compliance with the standards.
    Now, when the Obama administration first promulgated the 
MATS rule, they did not consider the cost to regulation, as 
you've already heard. The Supreme Court in Michigan v. EPA 
clearly said that was wrong, stating that the EPA must consider 
cost when determining whether it was ``appropriate and 
necessary'' to regulate power plants for HAPS.
    In response, the Obama administration issued a 2016 
supplemental finding putting forth two cost approaches, a cost 
reasonableness test and a cost-benefit analysis to determine it 
was ``appropriate and necessary'' to move forward.
    The EPA heavily relied on the cobenefit of reductions in 
particulate matter 2.5 in its cost-benefit analysis, with more 
than 99 percent of the benefits being cobenefits. The Obama 
administration's interpretation of how to consider cost is open 
to argument.
    Immediately after the 2016 supplemental finding was issued, 
it was challenged in court. This litigation is ongoing, and the 
DC circuit is currently holding the case in abeyance.
    The Trump administration's proposed rule revises the EPA's 
approach to the decision in Michigan v. EPA and, in the EPA's 
own words, and I quote, ``corrects flaws in the EPA's prior 
2016 response to Michigan,'' close quote.
    The EPA calls into question the previous administration's 
heavy reliance on cobenefits to justify its ``appropriate and 
necessary'' finding.
    As Chief Justice John Roberts highlighted through his 
questioning during oral argument in Michigan, it is 
questionable whether a pollutant that already has its own 
regulatory framework under the Clean Air Act, such as PM2.5, 
should be so heavily relied on as a cobenefit to justify a 
regulation of another type of pollutant. The EPA proposes 
instead to directly compare the cost of compliance with MATS 
with the benefits specifically associated with reducing 
emissions of HAP.
    The Clean Air Act is silent on whether or not the EPA 
should consider cobenefits in the rulemaking process. I remind 
my colleague, this body has the ability to change the law and 
statutorily determine whether and how cobenefits should be 
considered. But I've seen no bills introduced to do that to 
date.
    If Congress remains silent, as we have since 1990, then I 
strongly suspect that this issue ultimately will be determined 
by the Supreme Court.
    I want to thank our witnesses for being here today. It's my 
understanding that the majority did invite the EPA to testify 
today. And, unfortunately, the EPA declined that invitation, 
explaining they had a conflict and offered to come at a later 
date. I'm disappointed the EPA is not here today. They should 
be to explain the proposal and the reasons they have issued 
this proposed rule. So I hope we have a second hearing where 
they can attend.
    I would point out there have been other hearings where the 
majority has not invited the administration to present 
testimony, made a decision to do that when we've asked them to. 
So it kind of goes both ways. But in this case, the EPA ought 
to be here. I'm with you, Madam Chair, and we'll work with you 
to make sure they show up next time.
    And, with that, I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Thank you, Chair DeGette, for holding this important 
hearing.
    Mercury poisoning poses a serious risk to all children and 
adults--especially pregnant women and infants. The mercury 
levels in certain areas depend on how much mercury is not only 
released locally, but also how much is released across the 
globe. The amount of mercury that travels across the globe is 
not insignificant--some research suggests that about one-fifth 
of the mercury entering the Willamette River in Oregon comes 
from abroad--oftentimes from China.
    Let's be clear though--in their recent proposal, the EPA is 
not changing the emission standards and other requirements of 
the MATS rule for coal- and oil-fired power plants. Indeed, the 
EPA explicitly says that their proposal is to keep power plants 
on the Clean Air Act section 112(c) source list and not to 
change the existing emissions standards promulgated in 2012.
    The decision to keep the existing emission standards in 
place for power plants makes sense, especially given that 
industry has already complied with the MATS rule. The initial 
compliance date was over 4 years ago. Power plants have reduced 
mercury emissions by about 86 percent and reduced emissions of 
total Hazardous Air Pollutants (HAPs) by 96 percent since 2010. 
These reductions have come at a large cost to industry, 
however. In their comments to the proposed rule, the U.S. 
Chamber of Commerce said the power sector has spent about $18 
billion on compliance controls thus far.
    Not only is it logical for the EPA to keep the existing 
emission standards in place for power plants, but also, under a 
2008 DC Circuit case, the EPA cannot change the existing 
emission standards unless they go through the extremely 
rigorous delisting process under section 112(c)(9) of the Clean 
Air Act. Given this precedent and how difficult it is to delist 
a source category from the section 112(c)(1) list of the Clean 
Air Act, I have questions for the witnesses today about the 
likelihood of this risk, especially since industry is already 
in compliance with the standards.
    When the Obama administration first promulgated the MATS 
rule, they did not consider the cost of the regulation. The 
Supreme Court, in Michigan v. EPA, clearly said that was wrong, 
stating that the EPA must consider cost when determining 
whether it was ``appropriate and necessary'' to regulate power 
plants for HAPs. In response, the Obama administration issued a 
2016 Supplemental Finding putting forth two cost approaches--a 
cost reasonableness test and a cost-benefit analysis--to 
determine it was ``appropriate and necessary'' to move forward. 
The EPA heavily relied on the cobenefit of reductions in 
particulate matter 2.5 in its cost benefit analysis, with more 
than 99 percent of the benefits being cobenefits.
    The Obama administration's interpretation of how to 
consider costs is open to argument. Immediately after the 2016 
Supplemental Finding was issued, it was challenged in court. 
This litigation is ongoing, and the DC Circuit is currently 
holding the case in abeyance.
    The Trump administration's proposed rule revises the EPA's 
approach to the decision in Michigan v. EPA, and in the EPA's 
own words ``corrects flaws in the EPA's prior 2016 response to 
Michigan.'' The EPA calls into question the previous 
administration's heavy reliance on cobenefits to justify its 
``appropriate and necessary'' finding. As Chief Justice John 
Roberts highlighted through his questioning during oral 
argument in Michigan, it is questionable whether a pollutant 
that already has its own regulatory framework under the CAA--
such as PM 2.5--should be so heavily relied on as a cobenefit 
to justify a regulation for another type of pollutant. The EPA 
proposes instead to directly compare the cost of compliance 
with MATS with the benefits specifically associated with 
reducing emissions of HAP.
    The Clean Air Act is silent on whether, or how, the EPA 
should consider cobenefits in the rulemaking process. I remind 
my colleagues that this body has the ability to change the law 
and statutorily determine whether and how cobenefits should be 
considered. I've seen no bills introduced to date on this 
point. If Congress remains silent--as we have since 1990--then 
I strongly suspect that this issue will ultimately be 
determined by the Supreme Court.
    I want to thank the witnesses for being here today. It is 
my understanding that the majority invited the EPA to testify 
today and the EPA declined the invitation, explaining that they 
had a conflict and offering to come at a later date. I'm 
disappointed that the EPA is not here today to explain the 
proposal and the reasons they have issued this proposed rule. I 
hope the Chair schedules a second hearing with the EPA soon.

    Ms. DeGette. The gentleman yields back.
    I now ask unanimous consent that the Members' written 
opening statements be made part of the record.
    Without objection, so ordered.
    I now want to introduce the panel of witnesses for today's 
hearing: Ms. Janet McCabe, who is the former Acting 
Administrator, the Office of Air and Radiation, U.S. EPA; Ms. 
Heather McTeer Toney, who is the national field director for 
Moms Clean Air Force; Mr. Michael Livermore, associate 
professor of law at the University of Virginia; Dr. Noelle 
Eckley Selin, Ph.D., associate professor at MIT, director of 
the MIT Technology and Policy Program; Dr. Philip Landrigan, 
M.D., M.Sc., director of Global Public Health Program and 
Global Pollution Observatory at the Schiller Institute for 
Integrated Science and Society, Boston College; and Mr. Adam 
R.F. Gustafson, partner of Boyden Gray & Associates PLLC.
    Thank you all for appearing before the subcommittee today. 
And I know you're aware that the committee is holding an 
investigative hearing. And when we do so, we take testimony 
under oath.
    Does anyone have an objection to testifying today under 
oath?
    Seeing no objections, let the record reflect the witnesses 
have responded no.
    The Chair then advises you, under the rules of the House 
and the rules of the committee, you're entitled to be 
accompanied by counsel.
    Do any of you wish to be accompanied by counsel today?
    Let the record reflect the witnesses responded no.
    So, please, if you would, please, rise and raise your right 
hand so you may be sworn in.
    [Witnesses sworn.]
    Ms. DeGette. Let the record reflect the witnesses have 
responded affirmatively, and they've been seated.
    You are now under oath and subject to the penalties set 
forth in title 18, section 1001, of the United States Code.
    Now the Chair will recognize witnesses for 5-minute opening 
statements. In front of you, you've got a microphone and a 
series of lights. The light turns yellow when you have a minute 
left and red to indicate your time has come to an end.
    And so, Ms. McCabe, you're first. And I'm pleased to 
recognize you now for 5 minutes.

      STATEMENTS OF JANET McCABE, FORMER ACTING ASSISTANT 
   ADMINISTRATOR, OFFICE OF AIR AND RADIATION, ENVIRONMENTAL 
    PROTECTION AGENCY; HEATHER McTEER TONEY, NATIONAL FIELD 
DIRECTOR, MOMS CLEAN AIR FORCE; MICHAEL A. LIVERMORE, ASSOCIATE 
PROFESSOR OF LAW, UNIVERSITY OF VIRGINIA; NOELLE ECKLEY SELIN, 
PH.D., ASSOCIATE PROFESSOR AND DIRECTOR, TECHNOLOGY AND POLICY 
   PROGRAM, MASSACHUSETTS INSTITUTE OF TECHNOLOGY; PHILIP J. 
   LANDRIGAN, M.D., DIRECTOR, GLOBAL PUBLIC HEALTH PROGRAM, 
 SCHILLER INSTITUTE FOR INTEGRATED SCIENCE AND SOCIETY, BOSTON 
   COLLEGE; AND ADAM R. F. GUSTAFSON, PARTNER, BOYDEN GRAY & 
                        ASSOCIATES PLLC

                   STATEMENT OF JANET McCABE

    Ms. McCabe. Thank you, Chair DeGette, and members of the 
subcommittee. I appreciate being here today and note that I'm 
here in my personal capacity, not representing Indiana 
University.
    EPA's proposal to withdraw the ``appropriate and 
necessary'' finding that underpins the MATS rule is of grave 
concern for three reasons. First, it provides the legal 
predicate for the eventual withdrawal of a rule that protects 
the most vulnerable among us from exposure to mercury and other 
harmful pollutants. It takes a radical new approach to 
consideration of health benefits that has implications far 
beyond this rule. And it injects regulatory uncertainty into a 
program the industry has already complied with and does not 
want to be reopened.
    Mercury is extremely harmful to human health, especially 
babies and pregnant women and their unborn children. Prior to 
MATS, fossil-fired power plants were the single largest 
industrial emitter of mercury.
    In 1990, Congress adopted a technology-based approach to 
addressing emissions of air toxic from stationary sources. 
Because coal-fired power plants were already regulated through 
other programs, such as the acid rain program, Congress 
required EPA to evaluate whether it was ``appropriate and 
necessary'' to develop a rule for them.
    The EPA made that finding in 2000 but in 2005 reversed it, 
instead issuing a national mercury cap-and-trade program. The 
DC circuit overturned that rule, leaving the Obama 
administration to address this ongoing regulatory obligation.
    EPA issued MATS and a new finding in 2011. EPA used the 
best information available and followed longstanding OMB 
guidance to project the cost and benefits of the rule. That 
meant considering the full range of health benefits, including 
reductions of all harmful air pollutants, monetized or not.
    As is often the case, the technologies EPA expected 
utilities would use to control mercury would also reduce other 
harmful air pollutants, such as fine particles. The health 
effects of these pollutants are significant, and these 
reductions were not already required by other programs.
    The DC circuit fully upheld MATS. The Supreme Court agreed, 
except that it held that EPA should have considered cost as 
part of the ``appropriate and necessary'' finding itself. So 
the EPA issued a supplemental finding in 2016 looking at cost 
and benefits in several ways and again concluding that MATS was 
"appropriate and necessary."
    In the meantime, the industry implemented the rule and is 
now in compliance. Although EEI and others urged EPA not to 
change the ``appropriate and necessary'' finding or the 
provisions of MATS, EPA issued its proposed withdrawal earlier 
this year.
    EPA now proposes to conclude that the costs outweigh the 
benefits, looking at the very same information it considered in 
2011 and 2015 but using a radically different approach to how 
it considers benefits. And while EPA presents this almost as if 
it has no choice, the Agency is choosing to paint itself into 
this corner.
    First, despite saying that it is not proposing to rescind 
MATS, a rescission of the finding would create the legal 
predicate for the Agency to do so or for outside parties to 
petition EPA to do so and sue them if they don't. EPA indeed 
seeks comment on this very question, and we're seeing public 
statements that indicate people believe that this is the first 
step to repeal of MATS.
    Second, EPA proposes to reverse itself on the strength of a 
single highly significant policy change, that it's 
inappropriate to consider fully the health and benefits 
associated with any pollution reductions other than the air 
toxic specifically targeted by the rule. This approach ignores 
decades-old OMB guidance and years of agency practice that 
value both direct and indirect benefits. It also ignores cause-
and-effect realties and favors industry costs over public 
health benefits.
    The EPA's approach distorts cost-benefit analysis in ways 
that reasonable businesses would not do. Savvy businesses try 
to achieve multiple benefits when installing new equipment. One 
pollution control technology often accomplishes multiple 
purposes and helps with compliance beyond the specific rule 
that drives the initial investment.
    EPA is basing this revised analysis on a record that is 
demonstrably out of date. There's now information showing both 
that costs have been lower and benefits will be higher. If EPA 
is going to proactively reopen this rule and dramatically 
change its methodology, to willfully ignore the facts on the 
ground turns this into an academic exercise. Rulemaking under 
the Clean Air Act is not academic. These programs affect health 
and quality of life for millions of people.
    The proposal also unnecessarily creates uncertainty for 
utilities who have already complied. If EPA reverses the 
finding, it will kick the legal legs out from under the 
standards themselves. And if the requirements go away, it may 
complicate rate recovery, or utilities may decide to operate 
their controls less, which would mean a return to higher 
mercury and other toxics in our communities.
    If EPA finalizes this rule, we can reasonably expect to see 
this approach to devaluing health benefits in every EPA 
proposal.
    This program has been a success. Mercury emissions from 
coal plants have gone down, and mercury levels in water and 
fish have decreased. This program is in the rearview mirror for 
utilities, and contrary to EPA's mission to protect public 
health and the environment, it should not be finalized.
    And I apologize for going over.
    Thank you.
    [The prepared statement of Ms. McCabe follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Ms. DeGette. Thank you so much.
    The Chair now recognizes Ms. McTeer Toney for 5 minutes.

               STATEMENT OF HEATHER McTEER TONEY

    Ms. McTeer Toney. Chairwoman DeGette, Ranking Member 
Guthrie, and members of the subcommittee, thank you for the 
opportunity to testify about the U.S. Environmental Protection 
Agency's mercury and air toxic standards.
    My name is Heather McTeer Toney. I serve as the national 
field director of Moms Clean Air Force. We're a community of 
over 1 million moms and dads united against air pollution and 
climate change for the sake of our children's health.
    I'm here today to explain why the EPA's proposed rule is 
completely unacceptable and should be withdrawn. In March of 
this year, one of our member moms, Nikki Katrice White, 
traveled with us to DC to participate in an EPA hearing on the 
MATS proposal.
    Nikki is a healthcare worker, a native of Camden, South 
Carolina, where she lives and raises her two children. And as a 
Black mother living in the shadow of the local coal-fired power 
plant, Nikki is acutely aware of the need for strong air 
pollution controls. She sat before the EPA hearing panel and 
shared how her family was grateful for the sustainable income 
yet, at the same time, blissfully unsuspecting of the dangers 
that come with living alongside coal-fired power plants.
    She shared how they didn't think twice when her mother gave 
birth to her only son, and he was stillborn. They didn't give 
it a second thought when her mother and sister developed 
fibroids, because everybody believes that they're common among 
African-American women. And it didn't even dawn on her when her 
own children started to have respiratory issues when there was 
no family history or significant risk factors.
    In her words, ``We didn't link any of that to the fact that 
my mother's job was powered by May Plant, a coal-fired power 
plant just off the Wateree River. We lived by it, and we were 
exposed to these chemicals. But what we do know is that MATS is 
one of the several pollution standards that have helped clean 
up the environment in my community.''
    Ms. White's words were not just spoken on behalf of her and 
her two children but on behalf of the millions of kids across 
this country that live under a cloud of air pollution and 
dangerous brain-damaging toxins that inhibit their lives and 
limit their potential.
    When the Agency proposed in February of 2019 to change key 
elements of the mercury and air toxic standards, claiming that, 
as a result of the extremely limiting accounting of the cost 
and benefits rules, the rule is not ``appropriate and 
necessary,'' our mothers found that disingenuous and dangerous. 
The criteria of ``appropriate and necessary'' is a legal 
yardstick under the Clean Air Act, and removing this status 
undermines the legal foundation of the rule, leaving it 
vulnerable to legal challenge.
    Furthermore, while EPA has continuously claimed that it's 
leaving the current standard for mercury emission in place, 
they are taking steps consistent with changing and/or altering 
the rule altogether. Not only does the proposal directly attack 
the underlying justification of MATS, but EPA specifically 
solicits comments on whether, if it were to finalize its 
proposed conclusion, it then had the authority or the 
obligation to rescind the MATS rule altogether. This is an 
insult to the intelligence of mothers everywhere.
    I previously served as Regional Administrator for the EPA 
Southeast Region under President Obama and EPA Administrator 
Gina McCarthy. My region covered eight States, six Tribes, and 
over a quarter of the Nation's population. My job was to not 
only assist communities and industry to implement MATS but also 
to explain the importance of these protective measures, 
especially in vulnerable communities and communities of color.
    I also am a former mayor, having served my hometown of 
Greenville, Mississippi, for two terms. And I'm the mother of 
three, one of whom has joined me today. Mothers know that coal-
burning power plants are the largest source of human-caused 
mercury emissions in the U.S., and mercury is harmful to the 
developing brain.
    In 2005, researchers estimated that between 316,000 and 
637,000 newborns were born each year in the U.S. with elevated 
mercury levels in their blood, levels associated with the loss 
of IQ. The resulting loss of intelligence and lost productivity 
was calculated to cost $8.7 billion in 2000 dollars.
    Everything we know about these pollutants show that 
controlling them is not just appropriate but vital. It's deeply 
problematic and a direct threat to our children's health that 
EPA now proposes to decide otherwise. Moms Clean Air Force, 
together with a diverse set of allies and partners, collected 
more than 350,000 comments in opposition to this proposal that 
were submitted to the docket.
    So what should be done to the current rule? Nothing. If 
they choose to do anything at all, EPA must strengthen our 
Nation's limits on mercury and toxic pollution from coal-fired 
power plants.
    I shared earlier that I have three children, and my 
greatest role is being a mother. My youngest son is 2 1A\1/2\. 
And when he plays with blocks, he likes to stack them into tall 
towers. He has sense enough to know that, if you pull the 
bottom block out, the rest of the tower will fall. If at 2 
1A\1/2\ he has the good common sense to understand that 
foundations matter, why does this administration and agency not 
understand that pulling the base from a protective rule can 
make the rest of it crumble? Why they would ever consider 
weakening a rule that protects babies' brains is senseless, and 
this must be called out for what it is. It is a direct threat 
to our children's health, and we will not take these threats 
kindly.
    Thank you.
    [The prepared statement of Ms. McTeer Toney follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    Ms. DeGette. Thank you very much.
    The Chair now recognizes Mr. Livermore for 5 minutes for an 
opening statement.

               STATEMENT OF MICHAEL A. LIVERMORE

    Mr. Livermore. Madam Chair, Ranking Member Guthrie, members 
of the committee, thank you for the opportunity to testify 
today. My testimony will focus on the treatment of cost and 
benefits in EPA's current proposal.
    The use of cost-benefit analysis to evaluate environmental 
regulation has a long history in the United States and has been 
embraced by administrations of both political parties. Cost-
benefit analysis creates a formal process for a simple idea: 
Agencies ought to do their best to anticipate and evaluate the 
consequences of their decisions and seek out rules that provide 
large benefits at low cost. Over time, approaches for counting 
cost and benefits have become standardized. Guidance documents, 
such as OMB's Circular A4, which was published during the 
George W. Bush administration, described best practices for how 
agencies should do this.
    A value of these best practices is maintaining consistency 
between agency decisions. One major critique leveled against 
the practice of cost-benefit analysis is that it's vulnerable 
to manipulation by agencies that want to provide ad hoc 
rationalization for policy choices that are based on political 
expediency.
    Well-established best practices reduce this threat because 
they create a clear standard that can be used to hold agencies 
accountable. If an agency departs from established methods, 
that raises a red flag, alerting the public and oversight 
officials to the possibility of manipulation. The larger the 
departure from established practices, the stronger the reason 
that the agency has to give for its departure.
    In EPA's current proposal, the Agency does, in fact, depart 
from established methods of conducting cost-benefit analysis, 
raising that red flag that the Agency is more interested in 
providing cover for a decision than in truly understanding the 
consequences of its actions.
    EPA's earlier analysis of the MATS rule, which was 
undertaken under the Obama administration, projected $9.6 
billion per year in compliance costs and between $37 billion 
and $90 billion per year in quantified benefits in addition to 
substantial unquantified health and environmental benefits.
    Contradicting the relevant guidance and decades of practice 
by administrations of both political parties, the current 
proposal functionally ignores the largest class of benefits 
associated with the MATS rule. And this is life savings--let's 
just be clear about what these benefits are--they're life 
savings for many thousand Americans. The result is a biased and 
misleading estimate that creates the false impression that the 
MATS rules were not justified in cost-benefit terms.
    The grounds that the EPA provides for functionally ignoring 
these benefits is that they are indirect cobenefits that result 
from exposure to particulate matter--or a reduction in exposure 
to particulate matter. These particulate matter benefits occur 
as a result of the pollution-control technologies that are used 
by firms to comply with the MATS rule. The A4 Circular, which 
again was adopted during the Bush administration, and EPA's own 
peer-reviewed guidance on conducting cost-benefit analysis 
direct the Agency to analyze both direct and indirect cost and 
benefits. Since President Reagan, EPA has counted cobenefits in 
many regulatory contexts, including many other Clean Air rules. 
The Agency fails to provide any adequate reason for this 
extraordinary and abnormal treatment of cobenefits. Nothing in 
either the relevant case law or the statute require the Agency 
to functionally ignore tens of billions of dollars of 
regulatory benefits.
    If finalized and adopted, the proposal would not only 
undermine a socially desirable environmental policy; it would 
create a dangerous precedent of agencies departing from 
established methods when it is politically convenient to do so, 
which would open the door in the future to flagrant 
manipulation of cost-benefit analysis. Such a trend would 
result in inefficient regulation because we're no longer 
adequately doing the analysis and would further erode public 
confidence in government.
    I am happy to answer any followup questions that you may 
have.
    [The prepared statement of Mr. Livermore follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    Ms. DeGette. Thank you so much.
    Dr. Selin, you are now recognized for 5 minutes.

                STATEMENT OF NOELLE ECKLEY SELIN

    Dr. Selin. Thank you, Chair DeGette, Ranking Member Guthrie 
for this opportunity to speak.
    I would like to share some of the latest developments and 
scientific understanding of where mercury comes from, how it 
travels in the environment, and how it ultimately affects human 
health.
    Mercury is emitted to the air by human activities, such as 
burning coal, a major source of mercury pollution. Once it's in 
the air, mercury undergoes chemical changes and can deposit 
both nearby and far away from sources, depending on its 
chemical form. After depositing to water bodies, mercury can be 
converted to methyl mercury, which is a potent neurotoxin. This 
form of mercury accumulates up food chains, and people in the 
United States are exposed to methyl mercury primarily by eating 
fish and shellfish.
    Scientific knowledge about mercury has advanced 
significantly since the mercury and air toxic standards were 
developed. My own research has focused on understanding and 
quantifying the effects of reductions in mercury emissions. 
That requires understanding where mercury is emitted, where it 
travels, where it's deposited and in what quantities, and how 
that mercury could affect human health.
    One such analysis we did is particularly relevant to the 
MATS standard. In a paper published in early 2016 in the peer-
reviewed journal Proceedings of the National Academy of 
Sciences, we quantified the direct mercury-related benefits to 
the U.S. of domestic and international mercury reductions. We 
calculated the expected changes in exposure to methyl mercury 
and quantified the expected impacts from the MATS standard 
compared to the impacts that would occur without the standard.
    Our best estimate is that the monetized mercury-related 
benefits of MATS will amount to $3.7 billion per year. The 
original regulatory impact analysis EPA performed for the MATS 
rule in 2011 quantified only a subset of those benefits and 
valued that subset at approximately $4 million to $6 million, a 
thousand times less.
    Our estimates are larger for two key reasons. First, we 
looked at the entire U.S. population while EPA considered only 
people who consumed fish they catch for themselves in fresh 
water. Recent work has shown that more than 80 percent of 
methyl mercury exposure to the U.S. population comes from 
saltwater fish, most of which is from the commercial market.
    Second, we included both the impacts of mercury on reduced 
IQ in newborns as well as cardiovascular impacts for all 
adults, while EPA looked solely at the reduction of IQ. An EPA-
convened expert panel concluded in 2011 that scientific 
evidence from mercury's cardiovascular effects was strong 
enough to include those effects in estimating benefits of 
regulations.
    Because of these two factors, our 2016 estimates are a more 
comprehensive assessment of the benefits of MATS than EPA's in 
2011. Yet the latest science indicates that even our work may 
be an underestimate for several reasons. First, we now know 
that mercury can have other health impacts in addition to those 
we assessed. Methyl mercury can have neurobehavioral effects 
beyond IQ declines as well as impacts on the immune system and 
reproductive system. These effects are harder to quantify in 
dollar terms, but scientific evidence that they're occurring 
continues to grow. Including these impacts would obviously 
increase the cost of mercury emissions and the benefits of 
reducing them.
    Second, our main estimates also do not take into account 
how long mercury lasts in the environment. Mercury is an 
element. So it doesn't go away. Mercury that we emit today 
circulates in the environment for decades and even centuries. 
This mercury can accumulate in the soil and below the surface 
in the ocean and return to the atmosphere. It then deposits 
again, converts to methyl mercury, and affects the health of 
future fish consumers as well. We estimated that taking into 
account these impacts would make our estimates about 30 percent 
larger.
    Third, our aggregate numbers for the entire U.S. population 
obscure the fact that the burdens of mercury pollution can fall 
disproportionately on some sensitive populations. These include 
those living near large emission sources such as coal-fired 
power plants and those for whom eating freshwater fish is 
important for subsistence, recreational, or cultural reasons, 
including Native Americans.
    Finally, our estimates only address the direct benefits of 
mercury reductions. The benefits of the role for reducing air 
pollution from particulate matter are substantial as well. And 
these were also quantified by EPA. For regulatory analysis to 
be accurate, it's important to take into account all potential 
consequences of regulations, intended or not, both positive and 
negative.
    In summary, the number of studies on mercury has been 
increasing during the nearly two decades I have been working on 
mercury science. And the best available science now indicates 
that the impacts of mercury are far larger than previously 
estimated. EPA needs to take into account the latest science on 
mercury as it makes its decisions.
    Thank you.
    [The prepared statement of Dr. Selin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. DeGette. Thank you very much, Doctor.
    The Chair is now pleased to recognize Dr. Landrigan for 5 
minutes.

                STATEMENT OF PHILIP J. LANDRIGAN

    Dr. Landrigan. Thank you, Madam Chair, Ranking Member 
Guthrie, for having invited me to testify before you.
    I come before you today as a pediatrician to talk about the 
impacts that mercury and particulate air pollution have on 
children. And when I say ``children,'' I mean unborn children 
in the womb, infants, and children as they're growing up across 
the span of childhood.
    And in my mind, the strongest reason for having a strong 
MATS rule is to protect the health of children and then to 
protect the health of future generations.
    So why the focus on children? Children are exquisitely 
vulnerable to hazards in the environment. I chaired a committee 
at the National Academy of Sciences that looked at this issue 
for 5 years, from 1988 to 1993. And we identified a series of 
reasons why children are more vulnerable than adults to toxic 
chemicals in the environment.
    First, the children are more heavily exposed. They breathe 
4 times as much air per day per pound of body weight as an 
adult, and therefore they will take much more proportionately 
of any foreign material into their body that's in the air.
    Secondly, they're biologically more vulnerable. A child's 
brain throughout the 9 months of pregnancy and on across 
childhood is rapidly--the cells in their brain are dividing, 
multiplying, and migrating according to precisely defined 
sequences. By the time a child is born, there are approximately 
a billion cells in the brain, 3 billion precisely engineered 
connections between and among those cells. If any toxic 
chemical gets into the body of a child during those complex, 
tightly choreographed processes of early development, things 
can go badly wrong, especially any chemical that directly 
damages the nervous system.
    And this is the case for methyl mercury. We heard about 
methyl mercury. A major source are emissions from coal-fired 
power plants that go through the atmosphere and get into fish, 
and then people consumer the fish.
    And if a pregnant mom consumes high levels of methyl 
mercury during pregnancy, we know from tragic experience 50 
years ago in Japan that the impacts can be devastating. In a 
place called Minamata, Japan, there was an epidemic of terrible 
neurological disease in newborn infants in which babies were 
born with small heads, blind, deaf, profoundly retarded, and 
spastic.
    Just as research on lead has shown us that gross obvious 
clinically detectable poisoning is only the tip of the iceberg, 
so too for mercury. We now know that even down to the lowest 
levels of mercury that are measurable, that mercury can damage 
the developing brain of an unborn child and infant and a child 
to produce a whole range of abnormal effects. We've heard about 
reduced IQ, also a shortened attention span, also behavioral 
problems.
    There are two points I really want to emphasize in regard 
to the neurological damage that mercury causes to children. 
Number one, this damage occurs down to the lowest measurable 
levels. There is no safe threshold. Standards that regulate the 
level of mercury in air are important, but they're no guarantee 
of safety. Damage occurs at levels of exposure below those 
artificial standards.
    And the second important point is that this damage is 
permanent. It's irreversible. It's not treatable by any known 
medical treatment. And therefore, the only rational approach to 
dealing with it is to prevent it.
    With that as background, I urge you to take the steps that 
are necessary to protect the underpinnings, the legal 
underpinnings, of the MATS rule to protect our children today 
and future generations.
    The MATS rule has been a tremendous success. It's reduced 
levels of mercury in the environment by more than 85 percent, 
which means that a generation of children born in the past 10 
or 15 years is being exposed to much lower levels of mercury 
than their predecessors. The situation here is very analogous 
to what happened back in the 1970s when EPA took lead out of 
gasoline. At that time, we were putting 100,000 tons of lead 
into gasoline each year in this country. The average blood lead 
level in our children was close to 20 micrograms. Starting in 
1975, EPA directed that lead be taken out of gasoline in a 
phased process. Over the next decade, blood levels in American 
children declined by more than 90 percent. Acute lead poisoning 
virtually has gone away in this country. Every child born since 
1980 has five more IQ points than children born before that 
time because of the reduction in lead.
    I recall that, back in 1982, then-EPA Administrator Anne 
Gorsuch tried to put lead back into gasoline. Congress rebuffed 
her, and the lives of American children were saved. Their 
health and their brains were preserved into the future.
    I urge you to do the same today. Thank you.
    [The prepared statement of Dr. Landrigan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. DeGette. Thank you very much.
    The Chair is now pleased to recognize Mr. Gustafson for 5 
minutes.

               STATEMENT OF ADAM R. F. GUSTAFSON

    Mr. Gustafson. Thank you, Chair DeGette, for inviting me to 
speak about EPA's proposed reconsideration of the mercury rule 
supplemental findings.
    The EPA's proposal represents an important course 
correction in the Agency's accounting of the costs and benefits 
of environmental regulation. EPA is correct that it should not 
give equal weight to incidental reductions of pollutants like 
particulate matter that could not legally be regulated under 
the same statutory regime as mercury. The 2012 mercury rule is 
one in a series of expensive rules that EPA cost-justified on 
the basis of cobenefits from incidental reductions of PM, even 
though PM is not the object of those regulations and is already 
regulated under different provisions of the Clean Air Act that 
govern criteria pollutants.
    Out of $37 billion to $90 billion in projected annual 
benefits, more than 99 percent came from the mercury rule's 
projected PM effects. PM reductions are the gift that 
regulators keep regifting. In the last administration, most of 
the benefits of Federal regulation came from PM-related 
cobenefits. In Michigan v. EPA, the Supreme Court agreed with 
the rule's challengers that EPA had to consider costs in 
determining whether the rule was appropriate. The Supreme Court 
did not decide whether EPA could rely on cobenefits. But that 
question was lurking in the background.
    At oral argument, Chief Justice Roberts noted, quote, 
``It's a good thing if your regulation also benefits in other 
ways. But when it's such a disproportion, you begin to wonder 
whether it's an illegitimate way of avoiding the quite 
different limitations on EPA that apply in the criteria 
program,'' end quote.
    EPA is now in litigation over the Obama administration's 
supplemental finding, which relies on PM cobenefits to justify 
the mercury rule. When the Trump administration took office, 
EPA had to decide whether to defend that finding or redo it.
    Today, I want to explain why EPA's proposed revision is 
required by statute and also why it is necessary to rationalize 
EPA's cost-benefit analysis.
    First, the Obama EPA's use of PM cobenefits to justify the 
mercury rule violates an express prohibition on regulating PM 
and other criteria pollutants under section 112, the statute 
that governs mercury and other hazardous air pollutants, or 
HAPS.
    If you want to know what pollutants really motivated the 
mercury rule, consider that 95 percent of its PM cobenefits but 
none of the direct benefits came from controls on acid gas 
emissions. By justifying a HAP rule on the basis of PM 
cobenefits, the Agency sidestepped the prohibition on 
regulating PM under section 112.
    This is not just a technicality. Congress intended criteria 
pollutants to be regulated under an entirely different 
framework that put States, not EPA, in the driver's seat. After 
EPA sets a National Ambient Air Quality Standard, it's the 
States that get to decide how to implement it. By using PM 
cobenefits to justify the rule, the Obama EPA substituted its 
judgment for the State's judgment about the best way to 
regulate PM.
    Even if the Clean Air Act had nothing to say about it, 
EPA's new proposal would be necessary to correct its arbitrary 
accounting of PM cobenefits. The EPA's air quality standard 
already requires States to reduce PM concentrations to the 
level that EPA deems, quote, ``requisite to protect the public 
health with an adequate margin of safety.'' Yet the Obama EPA 
counted PM cobenefits both above and below the levels of the PM 
standard. The benefits of attaining the PM standard were 
accounted for when EPA set that standard in the first place. 
Treating those reductions as cobenefits of the MATS rule 
amounts to double counting.
    Belts and suspenders each keep one's pants up. But wearing 
both at the same time does not yield twice the benefit. As for 
incidental PM reductions in areas that have already attained 
the PM standard, the Obama EPA unreasonably treated them as 
equally beneficial to reductions above the standard. That makes 
no sense.
    Less than a year after the mercury rule, EPA set a PM 
standard of 12 micrograms because that level was somewhat below 
the concentration shown by certain key studies to cause adverse 
health effects. Reducing PM below that level cannot possibly 
yield the same degree of health benefits as reductions in 
noncompliant areas.
    In conclusion, EPA's proposed reconsideration of the 
mercury rule's cost-benefit analysis is necessary to give 
effect to the Supreme Court's instruction in Michigan v. EPA 
and to the cooperative federalism framework that Congress 
established in the Clean Air Act. Following this approach in 
future rulemakings would avoid reporting an illusory or 
duplicative benefits and would help to rationalize EPA's air 
quality regulation.
    I welcome your questions.
    [The prepared statement of Mr. Gustafson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. DeGette. Thank you so much, Mr. Gustafson.
    The Chair now recognizes herself for 5 minutes for 
questioning.
    Ms. McCabe, the MATS rule is the first time the EPA has 
successfully protected the public from mercury release from 
power plants. And at Congress' direction, the EPA studied this 
issue in the 1990s, and then it took steps to develop the 
mercury standards for power plants as far back as 2000. Is that 
correct?
    Ms. McCabe. Yes.
    Ms. DeGette. And, Ms. McTeer Toney, I understand that the 
EPA's current mercury and air toxic standards, which were 
finalized in 2012, now provide critical public health 
protections for fence-line communities near power plants, which 
are often low-wealth communities. Is that right?
    Ms. McTeer Toney. Yes, ma'am.
    Ms. DeGette. And I will say, I was just telling Mr. 
Guthrie, we have one of these communities right in my 
congressional district, Swansea-Elyria and Globeville, where we 
actually had to go in and remove mercury from the yards of the 
homes there.
    Dr. Landrigan, I want to ask you: We know that mercury 
emissions can carry enormous public health consequences, as you 
talked about children and pregnant women. And I think that what 
you said is that these babies that are born after being exposed 
can suffer IQ and motor skills impairments that will really 
last a lifetime. They don't go away. Is that right?
    Dr. Landrigan. That is correct, ma'am.
    Ms. DeGette. And back to you, Ms. McCabe.
    As of today, the industry has actually spent billions of 
dollars to come into compliance with these rules and, in fact, 
that the power industry, what we heard is that they support 
keeping the rule in place. Is that also correct?
    Ms. McCabe. Yes. That's my understanding.
    Ms. DeGette. OK. Dr. Selin, a recent study--thank you for 
your excellent analysis. I thought it was terrific. And recent 
studies have suggested the direct benefits of protecting 
against mercury may be actually much higher than the ones 
quantified by the EPA. And, in fact, you found that the direct 
monetized benefits of mercury protection might be 3.7 billion 
more per year. And I think you said that's many more times than 
the EPA found in 2011. Is that right?
    Dr. Selin. That's correct.
    Ms. DeGette. And that's the direct benefits.
    Dr. Selin. Yes.
    Ms. DeGette. OK. Now, Mr. Livermore, you said in your 
testimony that the Obama EPA's finding was extremely well 
justified in cost-benefit terms. Is that right?
    Mr. Livermore. Absolutely.
    Ms. DeGette. And you also said, regarding the Trump EPA's 
proposal and methodology, it's, quote, "contradicting the 
relevant guidance and decades of practice by both political 
parties" and results in, quote, "a biased and misleading 
estimate" of cost and benefit.
    Could you please elaborate on that?
    Mr. Livermore. Well, you know, the purpose of cost-benefit 
analysis is to understand the consequences of an agency 
decision. And by excluding a large category of consequences, 
it's just functionally inconsistent with that goal. It's just 
kind of turning a blind eye to an enormous category of 
consequences. Here we're talking about thousands of lives being 
saved. They have quantified benefits of, you know, many 
billions of dollars. Tens of billions of dollars.
    So, if the goal of cost-benefit analysis is to get a clear 
picture of what the consequences of a decision are, blocking 
off a big chunk of the picture is just not how you do that.
    Ms. DeGette. OK. Now, Ms. McTeer Toney, can you--you really 
talked about the EPA and how they're the ones to blame for 
this.
    Can you elaborate on that a little bit more?
    Ms. McTeer Toney. So the fact that the EPA is 
reconsidering--or weakening this proposal is unnecessary. They 
use the term ``appropriate and unnecessary'' in terms of 
challenging the Michigan decision when the reality is there's 
no need for them to do so. The decision was currently in the 
hands of the Court. And the Obama administration did respond.
    But it was the Trump administration's EPA that decided to 
put that into abeyance and not defend it. And so, as a result, 
there's a decision that's being made that's completely and 
totally unnecessary.
    The second part of that is that they are taking actions 
right now that would weaken the rule. They say they're not 
trying to do it, but at the same time, they're holding 
hearings, they're requesting comments, and doing things that, 
in the scope of practice at EPA, one would do if you're going 
to actually reconsider or move and change it.
    Ms. DeGette. So, if their intent was actually strengthen 
the rule, what would they do instead of what they're doing now?
    Ms. McTeer Toney. They would have allowed it to proceed to 
the court system. I believe the Obama-era supplemental decision 
would have been upheld. We don't know that because the Court 
hasn't made that decision. And then they would have looked into 
the communities and looked at working in States to determine 
what things they need to do to make the rule stronger.
    Ms. DeGette. Thank you very much. I thank all of the 
witnesses, and I'd now like to recognize the ranking member for 
5 minutes for purposes of questioning.
    Mr. Guthrie. Thank you very much, and I thank all of the 
witnesses for being here, and Mr. Gustafson, I want to ask you 
a couple questions, focus on the way that Congress constructed 
the Clean Air Act, and obviously, Congress has the ability to 
change it if need be. And so it's my understanding that the 
Clean Air Act is designed to regulate hazardous air pollutants, 
such as mercury, and criteria pollutants, such as particulate 
matter, under different sections of the Clean Air Act.
    In your testimony, you state the Obama administration's 
2016 Supplemental Fact Finding, which EPA is now reconsidering, 
violates section 112's prohibition or regulating criteria 
pollutants and it violates the statute's instruction to 
determine appropriateness of HAP regulation for coal-fired 
plants only after imposition of the requirements of this 
chapter.
    Can you explain what you mean by this and, based on your 
understanding of the Clean Air Act, what section of the act 
would be a more appropriate section to regulate criteria 
pollutants?
    Mr. Gustafson. Thank you, Ranking Member Guthrie. Yes, 
that's exactly right, the Clean Air Act does address all of the 
pollutants that have been discussed today, but the act does so 
under different provisions.
    Particulate matter is one of the criteria pollutants that 
is regulated under sections 108, 109, and 110 of the Clean Air 
Act. The EPA identifies the criteria pollutants under 108; they 
set a standard under 109; and the States implement that 
standard with State implementation plans under section 110. 
That is why, under section 112, which governs mercury and other 
hazardous air pollutants, EPA is not permitted to regulate 
criteria pollutants like particulate matter.
    In addition, as you mentioned, section 112 also requires 
EPA, before regulating hazardous air pollutants from coal-fired 
power plants, to first determine whether, in light of all of 
the other Clean Air Act regulation governing those sources, 
further regulation is "appropriate and necessary."
    So the EPA is already required to accept as a baseline the 
existence of other regulation--the other regulation of PM--
including the National Ambient Air Quality Standard. And the 
problem with the mercury rule adopted under the past 
administration was that it treated cobenefits, that is, 
reductions of particulate matter, as equivalent to reductions 
on pollutants that the Agency is allowed to regulate under 
section 112.
    Mr. Guthrie. So the question isn't that these don't need to 
be regulated; of course, it's how they're regulated in 
accordance with the way Congress instructed the EPA. So 
Congress could change that instruction if we so----
    Mr. Gustafson. That's exactly right, and indeed, if the 
standard is not stringent enough, then EPA could set a new 
particulate matter standard. They did that last in 2013, not a 
year after the mercury rule was promulgated.
    Mr. Guthrie. OK. Thanks. And your testimony further states 
that, because the States are principally responsible for 
implementing, the EPA's treatment of PM reductions as 
cobenefits of its HAP regulation violates the cooperative 
federalism framework. You talked about the federalism 
framework.
    Can you elaborate on how this violates the cooperative 
federalism framework that was intended by Congress?
    Mr. Gustafson. Certainly. So, under section 110 of the 
Clean Air Act, States get to implement the standards for 
criteria pollutants like particulate matter. That means that 
they develop--the States develop an implementation plan. They 
get to decide what they think is the best way of addressing 
those pollutants given the circumstances on the ground within 
those States.
    And, by the way, criteria pollutants, like particulate 
matter, come from a variety of sources. It's not only power 
plants that produce these pollutants. So States have a menu of 
options for reducing particulate matter. They can do that by 
imposing limits on power plants, but they can also do that by 
regulating other sources, including motor vehicles that produce 
PM.
    So, basically, by treating cobenefits as the justification 
for this rule, the Obama administration usurped the State's 
prerogative to decide the best way to regulate criteria.
    Mr. Guthrie. Similar question. So cobenefits are the major 
reason for this cost-benefit analysis, like 99 percent. So does 
this mean that utilities that are located in an area that is 
already in attainment, again, that there is--that is to mean 
the EPA deems safe standard--is being forced to achieve levels 
that--are the utilities in safe attained areas being forced to 
achieve levels below the standard?
    Mr. Gustafson. Yes, that's correct. The 2016 supplemental 
finding makes clear that the Agency's defending claimed PM 
cobenefits both above and below the National Ambient Air 
Quality Standard.
    Mr. Guthrie. Thank you. My time's expired. I do have some--
for the record, offers--I submitted a list. I could read the 
list or can I----
    Ms. DeGette. You don't need to read it.
    Mr. Guthrie. So the seven items that I submitted the list 
to the Chair would be accepted in the record?
    Ms. DeGette. Yes. I just would point out, four of the five 
articles on your list--on the ranking member's list were 
written by the same person, Anne Smith, and I understand that 
she's a consultant for industry, but I will admit all of the 
items on the list without objection.
    [The information appears at the conclusion of the 
hearing.\1\]
---------------------------------------------------------------------------
    \1\ Two NERA Economic Consulting reports and a Federal Register 
entry submitted by Mr. Guthrie have been retained in committee files 
and also are available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109556.
---------------------------------------------------------------------------
    Mr. Guthrie. OK. Thank you.
    Ms. DeGette. The Chair's now pleased to recognize the vice 
chair of the Oversight Subcommittee, Mr. Kennedy, for 5 
minutes.
    Mr. Kennedy. Thank you, Madam Chair. And apologies for 
being a little late at coming back.
    According to the EPA's website, quote, "the mission of the 
EPA is to protect human health and the environment," end quote. 
That seems pretty straightforward, and yet here we are.
    EPA's enforcement is declining, as we saw a few months ago 
in the subcommittee, and the EPA is failing to protect human 
health and the environment. Yet here we see EPA wasting 
enormous resources and energy in their effort to question 
whether it is ``appropriate and necessary'' to regulate 
mercury.
    Ms. McTeer Toney, you said in your testimony that you--as 
you take EPA to task for diversion of resources and you write, 
quote: "Rather than revisiting these life-saving standards, EPA 
should be strengthening them to reduce hazardous air pollutants 
further from these sources, to better protect the health of 
children, families, and communities living near these 
facilities and downwind from them."
    So, ma'am, do you consider EPA's current mercury proposal 
consistent with the mission statement, again, "to protect human 
health and the environment"?
    Ms. McTeer Toney. Yes, I do, but may I elaborate just 
about----
    Mr. Kennedy. Please.
    Ms. McTeer Toney. I think it's important also to note that 
how this works together is something that additionally helps 
communities to realize these benefits. It was mentioned before 
that the States have the opportunity to regulate through their 
own SIP, but they work together interchangeably. So the way 
that the States realize these benefits that help these 
communities is they are dependent upon the standards that are 
set by the Federal Government; that's how they make their 
decisions.
    When we weaken and change those standards, it then weakens 
the States' abilities to make those decisions through their SIP 
programs, which in turn cost the State money, which in turn 
costs the people their health benefits.
    So it all works together, and that's why it's so important 
for us to realize and why moms are so concerned is because we 
know this will hit us in our communities quicker than anywhere 
else.
    Mr. Kennedy. And so, Ms. McCabe, if you really wanted to 
protect human health and the environment in particular with 
regard to mercury and air toxics, what actions should the 
Agency be taking now?
    Ms. McCabe. Well, they wouldn't go forward with this 
proposal, that's for sure. They would look at other rules 
that--and other sources that are emitting pollution, whether 
it's toxic pollution or other pollution, in our communities and 
work to strengthen those rules.
    It would help the States rather than--what they're doing 
now is pushing the responsibility onto the States and yet 
taking away the very programs that will help States meet their 
standards, like MATS, like the Clean Car Program.
    States cannot regulate motor vehicles. The Clean Air Act 
requires that EPA do that. So they're saying that they're 
helping the States, but they're really not.
    Mr. Kennedy. And so, building off that, EPA seems to want 
to have it both ways, just as you indicated, so it wants to 
tell the public that they're trying to keep the mercury rule in 
its place but at the same time taking actions that would seem 
to undermine the very rule's foundation. True?
    Ms. McCabe. True.
    Mr. Kennedy. So EPA's attempt to undermine important toxic 
pollutant protections, unfortunately, as I think you had 
indicated, is not new. Back in the 1980s, there was an attempt 
by the EPA that was thankfully unsuccessful to roll back 
standards relating to keeping lead out of gasoline.
    Dr. Landrigan, can you tell us more about the previous 
effort and what that teaches us about how we need to respond 
today with regards to the mercury protections?
    Dr. Landrigan. Well, the effort to take lead out of 
gasoline began in the early 1970s when pediatricians and 
various studies recognized that lead could cause damage to the 
brains of children at levels that were well below--standards 
that were well below the levels that were then considered to be 
safe.
    And, in fact, the cycle has repeated itself several times 
since. As more and more sophisticated research has come along, 
we found harm at levels of exposure lower and lower and lower 
until, today, the official statement of the Centers for Disease 
Control on lead and mercury is that no level of exposure is 
safe.
    So, acting on that information, EPA mandated that lead be 
taken out of gasoline beginning in 1975. And as I mentioned in 
my testimony, that led to a 90 percent reduction in blood lead 
levels in American children, a 5-point gain in the IQ of every 
child born since 1980, and an estimated economic benefit to 
this country of $200 billion in each annual class of children 
born since 1980, which is an aggregate benefit of close to 8 
trillion, if my math is correct.
    In 1982, in the Reagan administration, then-EPA 
Administrator Anne Gorsuch made a brief, ultimately 
unsuccessful attempt to put lead back into gasoline, reportedly 
acting at the request of a single refinery in New Mexico, but 
that was beaten back. And American children today enjoy blood 
levels less than 2 micrograms as opposed to the levels of close 
to 20 micrograms, which were the case 30 years ago.
    Mr. Kennedy. Thank you, sir.
    I yield back.
    Ms. DeGette. The Chair now recognizes Mr. Walden for 5 
minutes.
    Mr. Walden. Thank you, Madam Chair, and, again, thanks to 
the witnesses. As you can tell, we've got a couple hearings 
going on simultaneously, so we have to bounce back and forth.
    Mr. Gustafson, in your testimony, you discuss concerns that 
both Chief Justice John Roberts and now Justice Kavanaugh raise 
regarding the heavy reliance on cobenefits to justify the MATS 
rule. Now, if a court is asked to decide whether such heavy 
reliance can be given to cobenefits to justify the mercury 
rule, what do you think is the likely outcome?
    Mr. Gustafson. Thank you for the question. I think there's 
a high likelihood that other Justices on the Supreme Court 
would share the skepticism that Chief Justice Roberts expressed 
in oral argument in the Michigan case about EPA's undue 
reliance on really disproportionate PM cobenefits to justify 
the mercury rule. So I think courts should be skeptical of that 
methodology.
    Mr. Walden. So, in your testimony, you laid out how the 
reliance in the 2016 supplemental finding on cobenefits 
involves three distinct statutory defects. As one of the 
defects, you note that section 112 of the Clean Air Act 
expressly prohibits the EPA from adding an air pollutant which 
is listed under section 108, such as particulate matter, to the 
section 112 list. Now, if the EPA tried to directly regulate 
particulate matter under section 112, what do you think would 
be the likely outcome?
    Mr. Gustafson. That action would be clearly unlawful and 
would be rejected by a court.
    Mr. Walden. All right. Thank you.
    Ms. McCabe, in Michigan v. EPA, the Supreme Court ruled 
that the Agency must consider costs when determining whether or 
not it's ``appropriate and necessary'' to regulate power plants 
for hazardous air pollutants. The day after this ruling, June 
30, 2015, the EPA issued a broad post saying, and I quote: 
"From the moment we learned of this decision, we were committed 
to ensuring that standards remain in place to protect the 
public from toxic emissions from coal- and oil-fired electric 
utilities," close quote.
    Now, given the statement, what did the EPA believe was the 
purpose of the Supreme Court's decision in ruling that the EPA 
must consider cost when making the ``appropriate and 
necessary'' termination?
    Ms. McCabe. Yes. So, to clarify, the EPA did consider cost 
in the rulemaking. We did it in conjunction with the rule 
itself, not with the ``appropriate and necessary'' finding, and 
we had reasonable belief to think that that was not required. 
The DC circuit agreed. The Supreme Court disagreed, told us to 
use appropriate methods, left it to the EPA's discretion on how 
to do that cost analysis.
    So we were confident, because the cost and benefit analysis 
had already been done, that the rule was well justified and 
ought to remain in place, and we're committed to moving forward 
to respond to the Court's direction to do that analysis in the 
context of the ``appropriate and necessary'' findings.
    Mr. Walden. So, in your written statement today, you state 
that, and I quote: "Another significant flaw in EPA's approach 
is the fact that it is basing its revised analysis on a record 
that is demonstrably out of date," close quote.
    Yet, in the 2016 supplemental finding, EPA responded to the 
commenters asking for updated cost estimates by stating that it 
was not, and I quote, "consistent with the statute," close 
quote, for the EPA to try to estimate the actual costs incurred 
through compliance with the final CAA section 112(d) standards, 
close quote.
    If it was not consistent with the statute to use an updated 
cost estimate in 2016, why do you criticize the EPA's use of 
the original numbers today?
    Ms. McCabe. Well, these are very different circumstances. 
EPA was responding to a direct direction from the Supreme Court 
in that particular rulemaking. What the EPA is doing now is 
initiating sua sponte, on its own initiative, an inquiry and a 
change of approach. And in the meantime, a lot has happened in 
the world.
    It can be determined how much the rule actually cost and it 
is expected to cost. And, as we've heard today, there's a lot 
more information and study about the benefits of mercury 
reduction.
    Mr. Walden. So--thank you. In the blog post I referenced 
earlier in my questioning, the one that was issued the day 
after the Supreme Court ruled in Michigan v. EPA, the EPA 
stated the majority of the power plants are already in 
compliance or well on their way to compliance.
    Given that this statement was made a year before the 2016 
supplemental finding, didn't the Agency have updated cost 
information at that time too?
    Ms. McCabe. Well, no, we didn't.
    Mr. Walden. You did not?
    Ms. McCabe. We did not. We did take comment on a proposed 
supplemental finding and looked at that information and 
actually made some adjustments in the final supplemental 
finding in response to that information.
    Mr. Walden. All right. My time's expired. Thank you, ma'am.
    Ms. DeGette. Thank you so much. The Chair now recognizes 
the gentleman from New York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Chairwoman DeGette and Ranking Member 
Guthrie for holding this hearing. I thank you for the 
partnership that you've had with the Environment Subcommittee, 
and together I believe we've been able to conduct oversight of 
EPA's efforts to undermine MATS and rollback of other Clean Air 
Act protections, which I think is a very important mission for 
us to pursue.
    Mr. Livermore, the Trump EPA's current proposal is that it 
is no longer ``appropriate and necessary'' to regulate mercury 
while at the same time EPA is trying to convince the public 
that it is keeping the mercury rule in place. So was the Obama 
EPA using cost-benefit methodology correctly by counting the 
roughly $90 billion in cobenefits that came along with 
regulating mercury?
    Mr. Livermore. Yes, absolutely, it was correct in the 
matter of economics and policy and also of all guidance that's 
relevant to the question.
    Mr. Tonko. And now it seems that the Trump administration, 
by finding that it is no longer ``appropriate and necessary'' 
to regulate mercury, considers only the roughly $6 million 
figure in benefits from mercury reductions, not the roughly 90 
million--billion, excuse me, in cobenefits that came from 
reducing particulate matter.
    Mr. Livermore, you disagree with this approach and say that 
it results in, and I quote, "a biased and misleading estimate 
of cost and benefits." However, it seems that EPA is suggesting 
that they are legally required to take their current approach. 
So do you believe the Trump EPA is legally required to exclude 
cobenefits in looking at the mercury rule?
    Mr. Livermore. Absolutely not. There are, again, decades of 
practice under various statutory provisions, some of which look 
very familiar to the one in question, the Agency's accounting 
for indirect benefits, including administrations--the Reagan 
and Bush--rulemakings under Reagan and Bush administrations. 
Again, there's decades of practice.
    If Congress had wanted to make a change to make it clear 
that indirect benefits shouldn't be counted, plenty of time to 
do that. At no point was that done. Michigan v. EPA, if 
anything, stands for the proposition of agencies should be 
looking more expansively at cost and benefits and not less so.
    Mr. Tonko. And, in fact, you state in your testimony that 
in light of years of agency practice, agencies should consider 
indirect costs and benefits when making regulatory decisions 
and that, again, quote, "departing from this well-established 
norm requires a very good reason."
    So did the Trump EPA provide, quote, "a very good reason" 
for functionally dismissing cobenefits here from the 
calculation?
    Mr. Livermore. No, there isn't--it was a make wait reason 
at best. It doesn't distinguish other contexts where it counted 
indirect benefits. It doesn't limit the decision to this 
particular context. It's not clear when it's going to be 
applied in other contexts, and so the decisionmaking--the 
reason provided by the Agency was very weak.
    Mr. Tonko. And you say that, if the current EPA mercury 
proposal is finalized and adopted, it would be, and I quote, 
"opening the door to the flagrant manipulation of cost-benefit 
analysis."
    Mr. Livermore, can you elaborate on the risks of the Trump 
administration's new approach to future rulemaking?
    Mr. Livermore. Yes. So indirect benefits can be an 
important class of benefits, and so, if the decision in this 
case were applied across the board, it would just lead to gross 
inefficiencies in our environmental protection system. Almost 
more dangerously is that the Agency could kind of pick and 
choose--or any agency, for that matter--when it wanted to look 
at indirect benefits or not, or which indirect benefits it 
wanted to look at or indirect costs, for that matter. And if 
that's the case, then the entire purpose of cost-benefit 
analysis goes out the window, because agencies can just provide 
post-hoc rationalizations for decisions that are arrived on 
political grounds.
    Mr. Tonko. Well, I thank you for your answers. The Trump 
EPA's misguided approach ignores billions of dollars in 
benefits that come from avoided premature deaths, heart 
attacks, asthma attacks, and more.
    Revising the cost-benefit calculation is not simply an 
academic exercise. What we have here are peoples' lives and 
health being at stake, and is it double counting to consider 
outside benefits?
    Mr. Livermore. No. There's various claims about double 
counting that none of them--none of them stand up. A question 
that's come up is counting benefits below the NAAQS. So the 
National Ambient Air Quality Standards are set across the 
country, they're set according to a cost-blind standard. 
They're not set, and the EPA's never said that they are set, at 
a zero-risk standard, and so the idea that there are no 
benefits below the NAAQS is just nonscientific, and it's not--
the Agency has never said it, and so it's entirely appropriate 
for the Agency to count those benefits.
    So the short answer is no, there's no double counting this 
rule. And actually the Agency is very fastidious about avoiding 
double counting, and it hasn't done so in this case.
    Mr. Tonko. I very much appreciate your answers, and, again, 
this is about protecting the peoples' health and our 
environment.
    So, with that, Madam Chair, I yield back.
    Ms. DeGette. Thank the gentleman.
    The Chair now recognizes the gentleman from West Virginia, 
Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Ms. Chairman.
    To make sure that we understand, I don't think there's a 
person on this panel that I hear or in Congress that wants to 
see the mercury levels increase or cause problems. I think what 
we're trying to do is, what's the best way to reduce our 
exposure? And from what I can understand, using some of the 
information from the EPA, primarily we're getting our exposure 
to mercury by eating fish and shellfish.
    Water is not necessarily a source of that, because we can 
capture that through the testing, and our municipal water 
systems will test for that. So I'm interested if it's the fish, 
if it's the ingestion of fish that we're getting. I did some 
study on this.
    We saw on the Atlantic Coast, the Atlantic tuna, actually, 
the content or the exposure there to mercury has dropped 
precipitously, but yet on the West Coast, the mercury levels in 
the Pacific fish are increasing dramatically.
    So we see something that's kind of--maybe it's relative to 
the fact that we've reduced by 86 percent the amount of mercury 
that we're admitting from our coal-fired power plants because 
we understand the wind patterns, how that works, and I think 
from your--Dr. Selin, some of your testimony talked about it. 
Once it gets in the atmosphere, it can stay for thousands of 
miles, and it may be coming--we have coming from the Pacific 
rim, we have a chart that, unfortunately, I can't--it's not--I 
can't blow it up any more, but it simply shows that the big 
culprits in providing the mercury emissions into the atmosphere 
and primarily emitting into the water are coming from China and 
India, and we have a marked decrease. As a matter of fact, in 
one of the other reports we have here that was in 2016 says, 
from the EPA, that 83 percent--83 percent--of the mercury 
that's contaminating in the United States is coming from 
foreign sources. Eighty-three percent.
    So, if we're really focusing here, not politics as we see 
some people chatting here, if we're really talking about how 
we're going to reduce our mercury levels in this country, I 
think we need to take into a global perspective of what we're 
going to do about this, because these other nations are 
continuing to emit mercury levels at very high levels.
    So I want to go back to this cost-benefit ratio. If that 
premise is correct--and I'm not going to get caught up in 
whether or not the--whether it's ``appropriate and necessary'' 
and whether cobenefits--I think one of the things we should do, 
and maybe Gustafson, for you to respond would be, in cost-
benefits, assuming even with the cobenefits, should we be 
considering the costs that would be incurred in foreign nations 
to reduce their mercury emissions?
    And, right now, it's my understanding the costs are only to 
the American power plants that would be imposed, but the 
benefits would be derived by all. Since 83 percent is coming 
from someplace else, are we taking into consideration the costs 
that would be incurred in foreign nations to reduce so that we 
have a true cost-benefit ratio? Mr. Gustafson?
    Mr. Gustafson. You're exactly right that much of the 
mercury deposited in the United States comes from other 
countries, including China, and there's nothing that the 
Environmental Protection Agency can do to control pollution 
from China. That limits the effectiveness of any mercury 
control within the United States.
    I would point out, though, that the premise of much of my 
fellow panelists' comments is that this mercury standard would 
go away if EPA were to finalize this proposed reconsideration 
of the fact finding. That's not true.
    Under binding precedent in the DC circuit, a case called 
New Jersey v. EPA, the EPA would have to go through a delisting 
process in order to withdraw these sources from the mercury 
control. That's not likely to happen. So I don't think the 
risks that have been talked about here today are really 
relevant.
    Mr. McKinley. OK. Just in closing, just a second, do you 
think that we should include the costs incurred by other 
nations? It would be fair to include in the cost-benefit ratio, 
or should it just be the cost here in America but the benefits 
from all sources including PMs?
    Mr. Gustafson. That's a complicated question, and I'm not 
sure I'm prepared to give you an adequate response to it right 
now. I could follow up in written comments, but I think the 
EPA's primary responsibility is to address the Nation's air 
quality. That's what the Clean Air Act gives us jurisdiction 
for, and it's limited in its ability to do that by pollution 
from----
    Ms. DeGette. The gentleman's time has expired.
    The Chair now recognizes the gentlelady from New Hampshire, 
Ms. Kuster.
    Ms. Kuster. Thank you very much, Madam Chair.
    And thank you to all of you for being with us. I apologize 
that many of us have a hearing going on at the exact same time 
on prescription drug pricing.
    So I just want to focus in with Ms. McCabe about the 
current rule's cost-benefit assessment. Does it account for all 
of the known human health effects of mercury? And, in 
particular, it's my understanding that, since the rule was 
signed, there had been a whole series of papers published about 
health effects, since the risk assessment upon which the rule 
was based was done back in 2010 and much of these health 
effects were not known at that time. So could you bring us up 
to date on that?
    Ms. McCabe. Sure, yes. When EPA does a cost-benefit 
analysis, as it does for any major rule, it uses the best 
information that it has available, and we have a notice and 
comment process that allows everybody to bring to the Agency 
all the information that they have. And then the Agency makes 
the best decision looking at the full range of health benefits 
and recognizing that some of them we can monetize. We have 
studies that have helped us put a dollar figure on different 
health effects, but we also know there are many health effects 
that we cannot monetize. The work has not been done, or it's 
just extremely difficult to do that.
    Ms. Kuster. Are you aware of any new papers in the last 
decade that might shed light on this?
    Ms. McCabe. For sure, and we've heard about some of them 
today. So every minute people are doing work on this and there 
is more information coming forward. So, right now, today we 
have better information about the costs of reducing mercury, 
the cost, say, to human health, than we did in 2010, 
absolutely.
    Ms. Kuster. And is some of that information included? My 
understanding is that there are close to 500,000 comments 
recently. Is some of that included in that that we could 
review?
    Ms. McCabe. I believe so, that people who have been 
commenting on this proposal have brought forward all of this 
information.
    Ms. Kuster. This new data? And did the current rules' cost-
benefit assessment account for the full extent of the U.S. 
population exposed to mercury through fish consumption? 
Specifically, it's my understanding it was a relatively narrow 
assessment of freshwater fish, but not any assessment of 
saltwater fish consumption?
    Ms. McCabe. Yes. That's a good question. We felt at the 
time that the information we had where we could attach a dollar 
figure was limited to certain kinds of people who consume fish 
caught nearby in their communities, and that's what we 
monetized.
    And since then, there has been research to assign, you 
know, explain the benefits on a much wider prospective, in 
fact, the population across the country.
    Ms. Kuster. Madam Chair, I'd like to ask the committee 
staff if we could follow up and get that into the record on 
additional information.
    In continuing this line of questioning, I'll go to--Mr. 
Livermore? Yes, thank you very much.
    It's my understanding that OMB has instructed agencies to 
consider cobenefits in rulemaking and that cobenefits have been 
used in the development of regulations for decades.
    Do you believe it was appropriate and legally justified for 
the Obama EPA to consider cobenefits in deciding to regulate 
mercury and other air toxics emissions? And if you could 
comment, did the EPA engage in double counting by counting 
reductions in particulate matter, which is regulated under a 
different provision of the Clean Air Act?
    Mr. Livermore. So it was absolutely appropriate for the 
Agency to consider cobenefits. It was consistent with the 
relevant guidance, with EPA's own peer-reviewed guidance, with 
OMB guidance which was published during the George W. Bush 
administration, and decades of practice of administrations of 
both political parties. So it was very consistent with all of 
that and normal practice to consider cobenefits.
    Just to note, it's not like the Agency--cobenefits just 
mean that when the Agency regulates something that is targeted 
at, there's a kind of necessary and automatic other benefit 
that occurs. It's not the Agency's, you know--it has no choice, 
essentially, but to generate these benefits.
    And then your second question was whether the Agency 
engaged in double counting, and the answer is just no. What 
double counting means is like when you get a benefit out of 
some rulemaking and then you also count it for some other 
rulemaking, something like that. There's actually lots of 
different ways that double counting could emerge. The Agency 
has guidance documents about how to avoid double counting, 
actually.
    And in the mass rulemaking, every decision the Agency made 
was entirely consistent with its guidance to avoid double 
counting.
    Ms. Kuster. Thank you very much.
    I yield back.
    Ms. DeGette. Thank you.
    The Chair now recognizes the gentlelady from New York, Ms. 
Clarke, for 5 minutes.
    Ms. Clarke. I thank you very much, Madam Chair.
    And I thank our panel of experts for appearing before us 
today.
    I wanted to clear something up in response to Mr. 
McKinley's line of questioning.
    Dr. Selin, can you please explain the distribution of 
mercury for us? Isn't it true that mercury emissions are 
distributed both regionally and globally?
    Dr. Selin. Yes, that's absolutely correct. Mercury in the 
United States comes from both domestic and international 
sources, and the deposition of mercury to the United States is 
impacted by both of those sources. We've actually done some 
research that is directly relevant to the previous question 
looking at the benefits of domestic versus international 
controls on mercury, and we found that, per every ton of 
mercury emissions, the benefits to the U.S. are in order of 
magnitude higher from the MAT standard than from international 
emissions. That really underlines the importance of mercury 
reductions, not only for domestic benefits in the U.S. but also 
for regions in the U.S. that are particularly affected.
    Ms. Clarke. Very well. I thank you for that clarification. 
EPA is claiming that its proposal responds to a 2015 Supreme 
Court decision, Michigan v. EPA, that requires the Agency to 
consider costs before deciding whether to regulate mercury and 
air toxins from power plants, but EPA already responded to the 
Supreme Court ruling in 2016 when it issued its supplemental 
finding, and now the mercury standards that took so long to put 
in place have been fully implemented. Mercury and toxic air 
emissions are down substantially, and the American people are 
reaping the benefits.
    So I want to put all of this in perspective and ask, Ms. 
McCabe, is there any court ruling that requires EPA to reopen 
the ``appropriate and necessary'' finding at this time?
    Ms. McCabe. There is not. They're doing this totally on 
their own.
    Ms. Clarke. EPA asserts that its action to reopen the 
finding and compare only the so-called direct benefits of the 
rule to cost is, quote, "reasonable and may be the only 
permissible approach," end quote, here.
    Mr. Livermore, as someone who understands cost-benefit 
analysis and its interaction with the Clean Air Act, do you 
agree that the EPA's hands are tied here, as it claims?
    Mr. Livermore. Absolutely not. In fact, in Michigan v. EPA, 
the Court explicitly said that it was not ruling on the 
question of cobenefits. If you've noted, a couple of folks have 
mentioned Justice Roberts' discussion at oral argument. If 
you're grasping for comments during oral argument, that's not 
the law; the law's what's in the case. The case explicitly does 
not address this question.
    Ms. Clarke. And in your testimony, you state that the EPA's 
proposal provides no adequate explanation for its extraordinary 
and abnormal treatment of cobenefits. Can you explain why you 
believe EPA's new approach is such a departure from the norm?
    Mr. Livermore. Absolutely. So, again, in OBM guidance that 
had been around for decades that were adopted by the George W. 
Bush administration, the--not just EPA but every agency is 
instructed to account for both direct and indirect costs and 
benefits.
    The Agency has its own peer-reviewed guidance on this 
question where it states that indirect benefits should be 
counted and direct costs and benefits, and decades of practice 
from administrations of both political parties.
    Ms. Clarke. Very well.
    And, Ms. McCabe, I'm worried that it is the administration 
that is making standards legally vulnerable. EPA seems to 
acknowledge this by taking comments on whether to move the MAT 
standards altogether.
    Ms. McCabe, does this suggest to you that the EPA 
understands that it is leaving the standard legally vulnerable 
if it goes forward with this proposal?
    Ms. McCabe. I think they do understand that, and there's 
been a lot of discussion today about why on Earth are they 
doing this if they really mean it that they don't mean to undo 
the standards. If they want to change a policy about cost-
benefit analysis, they could do it in any rule or a separate 
policy, but they're specifically doing it in the MATS rule. And 
so I think if people think that EPA is not going to be asked 
now to move forward to vacate the rule if they rescind the 
``appropriate and necessary'' finding, they are mistaken. The 
request will come immediately.
    Ms. Clarke. Ms. McTeer Toney, turning to you, what message 
does it send that EPA is voluntarily taking action to undermine 
these critically important public health protections?
    Ms. McTeer Toney. It makes the statement that the health of 
our children is not as important to them as the cost to 
industry.
    Ms. Clarke. Yes, the EPA is voluntarily reopening this 
finding, and its action could risk all the progress that's been 
made in getting dangerous toxins from power plants out of the 
air.
    Why the EPA is spending time to fix something that doesn't 
need to be fixed is beyond comprehension.
    I yield back, Madam Chair.
    Ms. DeGette. Thank you, gentlelady.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Madam Chair. I 
appreciate it.
    Mr. Gustafson, my understanding is that the rules that are 
being looked at by the EPA currently were actually in the DC 
circuit being reviewed when the administrations changed. Is 
that accurate?
    Mr. Gustafson. That's correct. The case is still pending 
right now, Murray Coal v. EPA.
    Mr. Griffith. So am I correct that the EPA would either 
have to defend the Obama administration position on the costs 
or take a look at it? Is that correct?
    Mr. Gustafson. That's exactly right.
    Mr. Griffith. So is it some shock that the Trump 
administration might want to look at some regulations or the 
impacts of regulations brought about in a prior administration?
    Mr. Gustafson. I don't think it's a shock at all. It's 
perfectly normal for an incoming administration to request that 
challenges to pending rules be held in abeyance while the 
Agency can reexamine those rules. That's exactly what happened 
here, and when an agency determines that its prior action is 
not defensible, it is perfectly within the rights of the 
agency, and it's only responsible for the agency to stop 
defending it and instead to improve what they see as 
unjustifiable action. That's what happened here.
    Mr. Griffith. It's interesting because the Court did say 
that the costs had not been reviewed. It's interesting when you 
take a look at costs, it would appear to me, at least, that the 
costs and the benefits that are looked at--we're looking at the 
cobenefits and the particulate matter and all of that, but many 
areas, including my district, we had four facilities shut down; 
two were reopened as natural gas. But four coal facilities were 
shut down, two of those never to be reopened.
    The cost to the community was huge as well. Loss of jobs, 
loss of big incomes, loss of taxes, et cetera, et cetera. 
Wouldn't it only be reasonable if you're going to consider 
cobenefits when you're doing the benefit analysis to consider 
the cocosts or the colosses in a community as well?
    Mr. Gustafson. That's exactly right, and I think regulatory 
economists would agree that it's only a good practice when 
you're considering cobenefits to also consider corresponding 
cocosts. That was not done in this case. The past 
administration looked at cobenefits, but it only looked at 
direct costs. It didn't consider what higher electricity prices 
and plant closures could do economywide, and I think there are 
a lot of important costs that were neglected there. I would 
point out, though, that the cost-benefit methodologies that 
have been discussed today pertain to what agencies do in the 
regulatory impact analysis. That's not changing here.
    EPA has said it's not proposing to alter the way it reports 
benefits to OIRA. It's only changing--deciding what it will do 
for the ``appropriate and necessary'' determination in the 
context of this statute.
    Mr. Griffith. OK. And so it's not like the whole rule is 
going away. It's just an interpretation on how you do the 
analysis. Is that correct?
    Mr. Gustafson. That's right. This rule is not going away. 
The Agency isn't able to take it away under binding circuit 
case law, New Jersey v. EPA, and I'm not aware of anyone who 
intends to petition EPA for delisting. That's what would be 
required.
    Mr. Griffith. Now, my team over here has got a map, and 
it's a little dated, I will admit. It's from 2006, but I've 
always thought it was interesting when we talk about mercury--
we care about families, and we care about families across all 
matters. Does anybody know if this number--if this has changed? 
So what you're seeing is all the red area is where foreign 
mercury is predominantly the cause of mercury in the United 
States. You do see issues in the east, particularly in my 
region of central Appalachia and some of the other areas, where 
that shifts, but does anybody know if that has changed, or are 
we still getting a tremendous amount of our mercury from 
overseas sources? Yes, ma'am?
    Dr. Selin. I can answer that. We definitely do see these 
two patterns of domestic mercury deposition and international 
mercury deposition happening in the U.S., and you're quite 
correct that a lot of the deposition that we see to the United 
States from U.S. sources happens in the east. That's where many 
of the major sources are, and that's where many of the 
populations are impacted from those sources.
    We have seen mercury emissions go down quite a bit as a 
result of this rule, so we have seen declines in depositions.
    Mr. Griffith. I think we're all glad about that, but we 
want to make sure that the cost measures are accurate. One last 
thing: Where should I be looking to get my fish from? Because I 
eat a lot of fish, and I understand there's a lot of mercury in 
it. Are you the--who can answer the fish question?
    Ms. McTeer Toney. Well, I can help you out with part of 
that, because that's one of the things that we do at Moms Clean 
Air Force, is we make sure that we provide our mothers with 
this information, and so I think you ask a very interesting 
question, because certainly mothers that are in the United 
States of America, we rely on the U.S. Environmental Protection 
Agency to ensure the regulation here in the U.S. is correct, 
and we've been doing so. And we try to make it really clear so 
that our moms know, when you get pregnant and you go to the 
doctor and they tell you, ``Don't eat the tuna'' or ``You're 
not supposed to eat as much fish,'' why that happens.
    And so for our Native American moms and moms of color and 
people who live close to these water bodies, they need to 
understand that, when they're living right next to that 
facility, where the fish comes from and how it impacts the 
child's brain. So that was a really good depiction of what's 
happening in the east, where it's very localized to people, and 
I really hope that that type of information can be shared so 
that our Nation can understand why it's so important for us to 
be a part of global conversations. Unfortunately, we've pulled 
out of those at this time, but I hope----
    Ms. DeGette. The gentleman's time has expired.
    Mr. Griffith. I yield back.
    Ms. DeGette. Ms. Toney, we'd love to have a copy of that 
for our committee so we can look at it. Thank you.
    The Chair now recognizes the gentleman from California, Mr. 
Peters, for 5 minutes.
    Mr. Peters. Thank you, Madam Chair.
    Thank you to the witnesses. I'd like to spend a few minutes 
talking about the effectiveness of the mercury and air toxic 
standards. It just seems to me from what we've heard that, by 
any measure, that the Obama era rule has worked. The Trump 
era's--the Trump's EPA 2018 proposal shows that--the proposal 
itself shows that mercury emissions from power plants has 
decreased by 86 percent from 2010 to 2017 and that total air 
toxics emissions have been cut by 96 percent during that same 
period.
    Dr. Selin, how has this decline in mercury emissions 
affected human health and the environment, and what would you 
think about putting these standards at risk?
    Dr. Selin. Well, yes, as you say, there have been a lot of 
declines in mercury--mercury emissions--as a result of this 
rule. We've also seen declines, for example, in fish in the 
Atlantic that are occurring at the same time, and we would 
expect that this has substantial benefits to human health and 
the environment in the United States, and any effort to roll 
back this rule would then increase mercury emissions which 
would threaten those declines.
    Mr. Peters. With respect to my colleague's chart, Mr. 
Griffith's chart, it showed the percent of mercury that came 
from other places but didn't show the amount of mercury that 
was being deposited. Would you acknowledge that that's the 
case?
    Dr. Selin. That's true.
    Mr. Peters. OK, and so the fact that a large percentage of 
mercury in the west may come from foreign sources doesn't 
reflect the fact that a large--that maybe a lot less is being 
deposited. In fact, that we can do a lot for our country, 
particularly in the east, by reining in the sources, as the 
Obama rule did.
    Dr. Landrigan, you say in your testimony that the mercury 
and air toxic standards, quote, "prevent brain injuries, 
protect children's lungs, and save lives." If we're to lose the 
protections we have in place now, can you give us--I mean, 
you've touched on this a little bit before, but can you give us 
a general sense of what would happen to children in that 
instance?
    Dr. Landrigan. Well, yes, sir, thank you for that question. 
Mercury damages the human brain, and the human brain is most 
vulnerable to mercury in the earlier stages of development, 
during the 9 months of pregnancy, in infancy, and childhood. 
So, if mercury emissions were to increase because of the 
cascade of actions that's being initiated through the removal 
of--the proposed removal of this provision, the result would be 
more brain damage in children, lowered IQ, behavioral problems, 
problems that last a lifetime that cannot be treated medically.
    Mr. Peters. Thank you. I want to just observe that in the 
testimony of Ms. McTeer Toney, a former EPA official, now 
national field director for the Moms Clean Air Force, who are 
represented here in the audience, she cites, quote, "broad 
opposition to this proposal not only from parents, children, 
and grandparents but also from doctors, nurses, faith leaders, 
anglers, conservationists, and more. Even the regulated 
industry itself opposes this proposal."
    I wanted to ask, Ms. McCabe, if public health officials 
don't want this rule to go away, environmental groups don't 
want this rule to go away, many States say they don't want the 
rule to go away, even the regulatory industry does not want the 
rule to go, who is EPA trying to help with this proposal?
    Ms. McCabe. Yes, it's a good question, and I don't--I can't 
speak for EPA. I don't know, but I can think of two reasons why 
they would do this. One is that this administration has made 
very clear that they will do anything they can to help the coal 
industry, and this rule is sort of top of the list, even 
though, as you acknowledge, it's been implemented and the 
utilities are ready to move on.
    The other reason for doing this is to use it as sort of a 
flagship to inaugurate this new way of looking at benefits, at 
devaluing the full range of benefits. And I would offer the 
analogy of quitting smoking. If you quit smoking to reduce your 
chances of getting lung cancer, you are also having all kinds 
of other health benefits to you and the people around you----
    Mr. Peters. And it doesn't affect your jurisdictional power 
to quit smoking----
    Ms. McCabe. They come along for the ride, but they're real.
    Mr. Peters. Can I just say to conclude that we talk a lot 
about a number of pollutants in here, but we talk about heavy 
metals like lead and mercury. Those are the absolute worst 
things for children. They cause lasting, permanent damage, and 
we ought not to mess around with those here, and I oppose this 
awful action by the EPA.
    And I yield back.
    Ms. DeGette. The gentleman yields back.
    The Chair now recognizes the gentleman from Maryland, Mr. 
Sarbanes, for 5 minutes.
    Mr. Sarbanes. Thank you, Madam Chair.
    Thank you all for being here.
    Mr. Livermore, a moment ago something was said that I 
wanted to follow up on regarding the cost considerations. Did 
the EPA consider cocosts when it was finalizing these standards 
in 2012? Because the suggestion was made that it did not.
    Mr. Livermore. It did.
    Mr. Sarbanes. It did, and is it considering them now?
    Mr. Livermore. It's not revisiting it, so it's a cost 
estimate, so, essentially, yes.
    Mr. Sarbanes. OK. Let me get more into the benefits and 
cost discussion because that's obviously central here to the 
differing views we have on this matter, and we got to get those 
numbers right.
    Dr. Selin, in your testimony, you state that "the assertion 
by EPA that the MAT standards result in $4-6 million in 
mercury-related benefits to the U.S. is out of date and 
incorrect" and "the best available scientific information 
suggests that the mercury-related benefits that can be 
quantified are orders of magnitude more than that"--in fact, 
"in the billions of dollars." Your study estimates $3.7 billion 
in annual benefits just from the mercury reductions alone.
    Why is that number so different from the $4 million to $6 
million that's relied on by the EPA?
    Dr. Selin. Yes, the EPA's estimate is really only a partial 
analysis of the benefits of the MAT standard, and our estimates 
are larger for two basic reasons, one of which is the EPA's 
estimate only looked at people who consume fish they catch for 
themselves in freshwater, and we looked at the whole U.S. 
population. And the second is we included both impacts on 
reduced IQ as well as cardiovascular impacts of reduced heart 
attacks. EPA only looked at the reduction of IQ in newborns.
    Mr. Sarbanes. So you're taking a very broad perspective, 
which I think is the prudent one to do. I also know that now 
that the MATS has been implemented for several years, we have 
some sense of how much it costs industry to comply. And so, Mr. 
Livermore, I'm going to come to you on this. According to 2015 
analysis, costs of compliance with the mercury standards were 
about $7 billion less than the EPA estimate in 2011 because 
we've had a lot of technological improvements. We see this 
across many industries, and actually, in many regulatory 
environments where initially people resist it, they anticipate 
the costs will be overwhelming and too burdensome, and then 
technology kind of keeps the model changing over time.
    So that's the technologies kicking in, reduced prices of 
natural gas and so forth, and in your testimony, you say that 
the EPA's treatment of cost is "irrational" because "it fails 
to acknowledge the overestimation of regulatory costs 
associated with the 2012 MATS Rule." So, in your view, how 
should the Agency consider costs now that the rule has been 
complied with?
    Mr. Livermore. If the Agency actually wanted to look at 
what the costs and benefits of the rule going forward were, 
then--exactly--it would take into account both the fact that 
costs were lower than they were anticipated and the reality 
that most of the costs have already been incurred, and it does 
neither of those.
    Mr. Sarbanes. I mean, I think what we see going on here by 
the administration is they're really just kind of picking and 
choosing. They're not concerned about apples to apples or 
oranges to oranges either by category or temporally or anything 
else. They find the number that works for the argument that 
they're making or the policy change over here. Then they'll 
grab that, and then they'll grab something else to advance 
their position, even if those things don't rationally--are not 
rationally compatible.
    So they're clinging to these numbers that are hand-picked 
out of 2011 analysis. Without too much elaboration, their 
proposal states that, even if it considered new information, 
quote, "the outcome of the Agency's proposed finding here would 
likely stay the same."
    Ms. McCabe, it seems implausible that the Agency can reach 
this conclusion without even considering this new information. 
Can the Agency in your view put at risk up to 11,000 lives a 
year based only on its guess here that the new information, 
quote, likely wouldn't make a difference?
    Ms. McCabe. Well, that caught my eye too when I read the 
proposal. It doesn't seem like the way you should do 
rulemaking, to anticipate what people will tell you and then 
decide. So better would be to see what people bring forward and 
thoughtfully consider that. And as we've seen, there is 
significant new information that should factor into that 
decision and seems like it would lead to a different outcome 
than what they presumed in the proposal.
    Mr. Sarbanes. Thank you for that.
    And when the health of the American people is at stake, we 
ought to pay attention to science. We ought to come up with 
standards that make sense. We ought to rationally align those. 
I don't see that happening here with the Trump administration's 
proposal.
    With that, I yield back. Thank you.
    Ms. DeGette. The Chair now recognizes the gentlelady from 
Indiana, Mrs. Brooks, for 5 minutes.
    Mrs. Brooks. Thank you, Madam Chairwoman, and I apologize 
because I've been going--coming back and forth from the Health 
hearing.
    And so I want to welcome you, Ms. McCabe. Glad to have a 
Hoosier on the panel.
    And, with that, I'm going to yield my time to our ranking 
member, Mr. Guthrie.
    Mr. Guthrie. Thank you. I thank my friend for yielding.
    I know that there is a drug pricing hearing going on just 
downstairs from us, a couple of levels down. So I want to 
finish with some testimony from Mr. Gustafson. In your 
testimony, you note that EPA's 2016 supplemental finding 
adopted a cost reasonableness methodology as its preferred 
approach to making an ``appropriate and necessary'' finding.
    Under this approach, the EPA concluded that the cost of 
MATS is reasonable because compliance costs are well within the 
range of historical variability and that the power sector is 
able to comply with the rules requirements while maintaining 
its ability to perform its primary and unique function, which 
is the generation, transmission, and distribution of reliable 
electricity at reasonable costs to consumers.
    So my question is, having said that, do you believe that 
the cost reasonableness test was an appropriate response at the 
Supreme Court's decision in Michigan v. EPA? Why or why not?
    Mr. Gustafson. Absolutely not. The Court in Michigan v. EPA 
made very clear that a rule is not reasonable, much less 
appropriate, if its costs outweigh the benefits by a 
substantial degree, and so, in order to do that analysis, you 
would need to know what are the costs and the benefits.
    The cost reasonableness approach does not look at whether 
the costs are justified by the benefits. It only asks whether 
this will be destructive to the industry.
    Mr. Guthrie. OK. Why do you think the former administration 
chose this as their preferred approach?
    Mr. Gustafson. I think they chose it because they realized 
the vulnerability of their cost-benefit estimate, and they 
wanted to buttress their finding with an argument that doesn't 
require a court to look behind and see what are the relative 
costs and benefits.
    Mr. Guthrie. OK, and so why, in your opinion, did the 
former administration include both a preferred approach and an 
alternative approach in their 2016 supplemental finding?
    Mr. Gustafson. Well, I think it was a belt-and-suspenders 
approach to the litigation. I think they realized that, if the 
Court were only looking at their cost-benefit analysis under 
the secondary approach, that cost-benefit analysis was 
vulnerable to the judicial determination that it's unreasonable 
to look at particulate matter cobenefits as equal to the direct 
benefits of mercury reduction. And so I think they needed both 
to try to make it as strong as they could. I think neither of 
them is an adequate approach.
    Mr. Guthrie. So this next question kind of gets into where 
you--in what you said for some of your answers this morning, 
but in your written testimony, you note that "by ceasing to 
rely on particulate matter cobenefits to justify hazardous air 
pollution regulation, EPA's new proposal takes an important 
step toward rationalizing future air quality regulation without 
actually altering the mercury standard itself."
    So can you explain what you mean that this "proposal takes 
an important step toward rationalizing future air quality 
regulation"? And, likewise, do you think the changes to the 
``appropriate and necessary'' finding will have an impact on 
future regulation?
    Mr. Gustafson. I hope so, in answer to the last question. I 
think that if EPA--first of all, I would agree with the 
panelists who have pointed out that the Agency should be 
consistent in its cost-benefit approach. I think if the Agency 
is consistent about what it's proposing here, that it would not 
include criteria pollutants, like particulate matter and ozone, 
in cost-benefit analyses, at least, under the ``appropriate and 
necessary'' determination of section 112 in the future. That 
would be an improvement on the status quo.
    I think, more broadly, it would be appropriate for the 
Agency to consider how it does cost-benefit analysis even for 
regulatory impact analyses. Although, I would point out that 
that is different from what the Agency is proposing here. So 
circular A4 applies to that. It does not apply to what the 
Agency is doing here.
    Mr. Guthrie. So you made the point several times this 
morning that dropping the ``appropriate and necessary'' 
standard, making changes to the ``appropriate and necessary'' 
standing, won't have impact on the standard; the standard will 
still stand and have to go through a delisting process. And so, 
in your opinion, that dropping the ``appropriate and 
necessary''--obviously, the standard could be challenged in 
court as well. So you're saying it has--it could be delisted or 
could be challenged in court. So you're saying that it won't 
have any impact on the standard, in your opinion?
    Mr. Gustafson. I don't think it'll have any impact on the 
mercury standard to the court--the DC circuit, which is the 
court that hears all the Clean Air Act rules of nationwide 
application and which would be the court reviewing this 
decision, has made clear that, in order to get rid of the 
standard, you would have to delist the source.
    It's not sufficient just to say that it's no longer 
"necessary and appropriate." That delisting process is set out 
in statute, and it's a very high bar that I would be surprised 
if it could be met.
    Mr. Guthrie. Not being an attorney, if it's necessary to be 
``appropriate and necessary'' for the standard and that goes 
away, it seems like that would still be a requirement it needed 
to be, but I understand your----
    Mr. Gustafson. I share your instincts on that point, but 
the DC circuit in this New Jersey v. EPA case basically said 
that, because the statute includes a delisting provision, it 
sets out clear standards by which a source can be delisted, 
therefore the Agency does not have jurisdiction to withdraw the 
rule for other reasons.
    Ms. DeGette. The gentlelady's time is expired.
    The Chair now recognizes the gentleman from California, Mr. 
Ruiz, for 5 minutes.
    Mr. Ruiz. Thank you, Chairwoman.
    Mercury is clearly a dangerous toxin, and exposure to it 
can have permanent neurological effects for, particularly, 
small children. In EPA's own regulatory impact on analysis for 
MATS, EPA noted that exposure to mercury can cause a host of 
public health harms.
    Dr. Landrigan, your work has highlighted the importance of 
controlling toxic pollutants like lead and mercury in our 
environment and the impacts that these pollutants can have, 
especially on children.
    So what should the public know about the harmful effects of 
mercury, particularly on children? And then why this rule is so 
important in protecting them.
    Dr. Landrigan. Thank you, Mr. Ruiz.
    So what the public should understand about mercury is that 
different segments of the population have different 
sensitivity, and the two groups in the population who are most 
sensitive are, first, the pregnant women, not for the health of 
the woman herself but for the health of her unborn child and, 
secondly, small children, toddlers, and kids in general. And 
the reason that those segments of the population are so 
vulnerable is that it is during those periods of life, the 9 
months of pregnancy and first years after birth, that the human 
brain is going through this extraordinarily complex development 
that is necessary to produce----
    Mr. Ruiz. And so what can happen to their development if 
they are exposed?
    Dr. Landrigan. So, yes, if a toxin like mercury gets into 
the developing brain through the mother or into the child, it 
can damage the brain. The consequences are reduced IQ, 
shortened attention span, behavioral problems. These problems 
last lifelong, and there is no medical treatment for them.
    Mr. Ruiz. Thank you.
    Dr. Landrigan. The international approach is prevention.
    Mr. Ruiz. Thank you.
    EPA's 2018 proposal claims that benefits of mercury 
reduction would be between 4 and 6 million dollars per year 
based on results of 2011 analysis. However, Dr. Selin, your 
2016 paper in the Proceedings of the National Academies of 
Scientists show that the projected lifetime benefits of mercury 
reductions would be $147 billion through 2050, or an annualized 
benefit of $3.7 billion per year. That is a much larger number 
than what EPA has said. Can you briefly describe how you were 
able to determine these impacts?
    Dr. Selin. Sure.
    What we were able to do was actually take into account a 
larger population of people affected. So we had an analysis 
that took into account not only people who were eating 
freshwater fish but also marine fish, which is the majority of 
exposure to the U.S. population.
    Mr. Ruiz. So you had more subjects to have more accurate 
statistical analysis, and you also compared a group exposed and 
a group not exposed?
    Dr. Selin. So what we did was we projected the impacts of 
the standards, and we can compare that to what would happen 
without the standards. So in addition to just looking at a 
broader population, we also considered all adults and 
cardiovascular impacts, so heart attacks, which is also an 
impact of mercury.
    Mr. Ruiz. Well, $3.7 billion per year, that is much larger 
than the 4 and 6 million per year.
    Dr. Selin's study does not appear to be an outlier. In 
fact, for example, a study from 2017 in the Journal of 
Environmental Health calculated the economic cost of methyl 
mercury exposure in the U.S. to be $4.8 billion per year. And 
yet EPA continues to rely on the outdated 2011 estimates to 
justify their proposal.
    Dr. Landrigan, while the MATS standards control for mercury 
and air toxic emissions, they also have important additional 
benefits of controlling particulate matter emissions. EPA 
estimates that the MATS rule would prevent up to 11,000 
premature deaths, 4,700 heart attacks, and 130,000 asthma 
attacks annually beginning in 2016, and yet EPA seems to be 
ignoring these benefits in their new proposal.
    Dr. Landrigan, do you agree that the reductions in 
particular matter, pollution, that directly result from 
compliance with MATS is important for a public health 
perspective?
    Dr. Landrigan. Yes, I do. Air pollution causes disease 
across the lifespan. Air pollution exposure in a pregnant 
mother results in increased risk of small prenates babies. In 
children, it produces asthma or pneumonia. In adults, heart 
disease, stroke, lung cancer, chronic obstructive lung disease.
    Mr. Ruiz. Thank you.
    Ms. McCabe, was it appropriate for the Obama EPA to 
consider these benefits in its cost analysis even though 
particulate matter is regulated under a different provision of 
the Clean Air Act than the one that addresses mercury and other 
air toxins?
    Ms. McCabe. It was absolutely correct. It followed decades 
of standard peer-reviewed agency practice to consider 
cobenefits.
    And I will just note that, in the MATS rule, EPA was not 
regulating particulate matter. It was regulating toxics. And 
the technologies that utilities were expected to use to control 
mercury necessarily also control other air pollutants.
    Mr. Ruiz. Thank you.
    Given what we have heard here today about the harm mercury 
can cause, it still boggles my mind why anyone would go out of 
their way to undermine these standards.
    I yield back my time.
    Ms. DeGette. I thank the gentleman.
    The Chair now recognizes the ever-patient Mr. Soto for 5 
minutes. And welcome to the subcommittee, as always.
    Mr. Soto. Thank you, Madam Chair.
    I want to take a few minutes to talk about industry 
compliance with the mercury and air toxic standards. And just 
as a first listing to everybody here in the committee meeting, 
it is dumbfounding why we would be rolling back standards to 
protect children and the general public from mercury and air 
toxic poisoning when industry isn't even asking for it. I mean, 
it is absolutely an absurd kowtowing to an industry that isn't 
even requesting to be kowtowed to. I don't even know where to 
begin.
    But I will begin by talking about--Administrator Wheeler 
testified before this committee and acknowledged last month 
that the industry is largely in compliance with these standards 
because the power industry has made significant investments in 
the rule and has urged EPA not to undermine it. So at least we 
have reasonable actors in the private sector.
    On March 26 of this year, a collection of associations that 
represent the power industry wrote in an EPA letter, quote, 
"Given this investment and industry's full implementation of 
MATS, regulatory and business certainty regarding regulations 
under the Clean Air Act section 112 is critical. We urge the 
EPA leaving the underlying MATS rule in place and effective." 
This was by both our rural electric co-ops, by LIUNA, IBEW, and 
other unions.
    Ms. McCabe, are you familiar with this letter? And what is 
your reaction?
    Ms. McCabe. Yes, I am. And I totally get it. I have spent 
my whole life in State and Federal environmental agencies. And 
the thing that industry wants most is certainty. They want to 
know what the rules are and that they will stay in place.
    And what this is doing is injecting uncertainty, 
potentially years. Because if they finalize this proposal, it 
will be litigated. People will come forward and try to start 
the process to roll the rule back, which will create more 
uncertainty. And they have made these investments. They are 
either already getting ready rate recovery on it or they're 
seeking rate recovery on it. And this just complicates 
everything for them.
    Mr. Soto. So the administration's proposal, is in fact, 
injecting more uncertainty at a time when we had standards 
working that were better protection for the public. Thank you.
    Mr. Livermore, do you agree?
    Mr. Livermore. Yes. Absolutely. All this rule does is 
create uncertainty. It is possible that the rule will be 
upheld. That is--if the Agency moves forward with the 
``appropriate and necessary'' determination, that is the 
opinion of some folks. Frankly, I hope that that's correct. But 
we don't know that in advance, and we are putting the lives of 
thousands of Americans and neurological development of our 
children on the line on that supposition.
    Mr. Soto. And this includes the proposal by EPA to revoke 
the precursor findings from MATS?
    Mr. Livermore. Yes. That is a direct consequence of that.
    Mr. Soto. And, Mr. Livermore, how can we be certain that 
EPA's proposal will not undermine the existing mercury rule?
    Mr. Livermore. We can't be certain.
    Mr. Soto. Is EPA voluntarily exposing itself to some legal 
risk here?
    Mr. Livermore. Absolutely.
    Mr. Soto. Is the Federal Government at risk of rolling 
these back?
    Mr. Livermore. No question that there is going to be risk 
involved. It is very likely to get litigated. Anyone who thinks 
they have a crystal ball and can make perfect predictions about 
what the DC circuit is going to do is diluting themselves.
    Mr. Soto. And in your testimony, you bring up the Peabody 
Coal issue. And what does that mean for industry and public 
health?
    Mr. Livermore. I am sorry?
    Mr. Soto. Ms. McCabe.
    Ms. McCabe. Yes, I think that is me.
    So that is just an example of how industry is presuming 
that the rule is going to go away. This was in a proceeding at 
the Indiana Utility Regulatory Commission. And a Peabody entity 
commented that the industry was overestimating its future costs 
of MATS compliance because it said this proposal is likely to 
lead to the withdrawal or the rolling back of MATS. So that is 
how they are thinking about this.
    Mr. Soto. Well, I can tell you these standards and the 
overall lax of enforcement of coal ash, one of the biggest 
producers, is affecting my district and my family's native 
island of Puerto Rico. We recently sent letters over the last 
term about the Penuelas Valley landfill in Puerto Rico. And 
while we are trying to transition away from coal, more and more 
of that toxic coal ash is remaining in Puerto Rico. And just 
recently, my district--unfortunately, we had an attempt to 
import some of that coal ash into Osceola County, Florida.
    And so I would like to hear--first, I would like to 
introduce letters to the EPA that I sent regarding these two 
issues and would also want to hear from you, Ms. McCabe. Does 
this put my community and the communities in Puerto Rico at 
risk if we continue to burn coal and have these ashes 
accumulate?
    Ms. McCabe. Well, we know, certainly, from years of 
experience and study that coal-fired power plants pollute the 
environment in many ways through air pollution of many 
different kinds of pollutants, through water pollution, and 
through the creation of waste like coal ash. So the 
continuation of these facilities creates those risks in those 
communities.
    Mr. Soto. Ms. McTeer Toney, I represent a community that 
has a large community of color, and we also have, in Puerto 
Rico, an island of predominantly Hispanics.
    Is this often the case, that communities of color bear the 
brunt of coal ash?
    Ms. McTeer Toney. Unfortunately, yes. Front-line and fence-
line communities are oftentimes communities of color. These are 
communities that are located directly adjacent to, right next 
to, coal-fired power plants and are the communities that hit 
the impact the most and the earliest.
    Mr. Soto. I have the letters for potential submission.
    Ms. DeGette. I thank the gentleman.
    The Chair now recognizes the ranking member for a few final 
comments.
    Mr. Guthrie. Just a closing statement.
    When I did my opening statement, I said I hope we can have 
an intelligent discussion on what the issues are and how we 
regulate and how Congress designed the Clean Air Act, the 1990 
amendments. And, you know, we have the cobenefits being 99 
percent of the cost. So maybe we need to fix that. That is 
something Congress needs to look at. I think we have had that.
    The one group missing today is EPA. And EPA--it is 
Congress'--it's our responsibility, both sides of the aisle, to 
have investigation oversight. And it would have been helpful 
had the EPA been here today. And they have said they were going 
to make themselves available. And we hope that happens, because 
I think it is important for the Members to have the opportunity 
to talk to the EPA and the decisionmaking around this.
    And so it is my commitment to work with--if we have another 
date that we can make this work, as the ranking member, to work 
to get the EPA here to testify before this committee, because 
that is our responsibility under the Constitution for 
oversight, and we need to exercise that.
    So thank you.
    Ms. DeGette. I thank the ranking member for those comments. 
And, unfortunately, today's hearing is not the first hearing in 
this subcommittee that we have had trouble getting the 
administration to appear. So anything that your side could do 
to help us, because it really does help complete the record of 
these hearings.
    Having said that, I want to thank all of the witnesses for 
appearing today. This was an excellent panel, an excellent 
discussion.
    I would like to insert the following documents with 
unanimous consent into the record. They have all been cleared 
by the minority. The slides that Ms. McTeer Toney gave us about 
how mercury poisoning works; a letter to Administrator Wheeler 
dated May 10, 2019, by a bunch of members of this subcommittee 
and the full committee; a letter dated April 17, 2019, from the 
Environmental Law and Policy Center to the EPA; a letter by a 
coalition of groups dated March 26, 2019, that Mr. Soto asked 
for submission to the record; and a letter dated September 5, 
2017, from Mr. Soto to Administrator Pruitt.
    I would asked unanimous consent those all be entered into 
the record. So ordered.
    Mr. Soto. Madam Chair, there's actually a third letter, 
which is the response.
    Ms. DeGette. OK. I ask unanimous consent for the third 
letter, which is the response from the EPA. And that is 
inserted too.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. I want to remind Members that, pursuant to 
committee rules, that everyone has 10 business days to submit 
additional questions for the record to be answered by witnesses 
that have appeared before the subcommittee. And I would like to 
ask all the witnesses, if you do get those questions, please 
respond promptly.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 12:13 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
   
    
  
                                 <all>
</pre></body></html>
